<html>
<title> - LEGISLATIVE HEARING ON H.R. 4293, TO AUTHORIZE THE APPROVAL OF NATURAL GAS PIPELINES AND ESTABLISH DEADLINES AND EXPEDITE PERMITS FOR CERTAIN NATURAL GAS GATHERING LINES ON FEDERAL LAND AND INDIAN LAND, ``NATURAL GAS GATHERING ENHANCEMENT ACT''; AND H.R. 1587, TO AUTHORIZE THE SECRETARY OF THE INTERIOR AND THE SECRETARY OF AGRICULTURE TO ISSUE PERMITS FOR RIGHTS-OF-WAY, TEMPORARY EASEMENTS, OR OTHER NECESSARY AUTHORIZATIONS TO FACILITATE NATURAL GAS, OIL, AND PETROLEUM PRODUCT PIPELINES AND RELATED FACILITIES ON ELIGIBLE FEDERAL LANDS, AND FOR OTHER PURPOSES, ``ENERGY INFRASTRUCTURE IMPROVEMENT ACT''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 H.R. 4293, ``NATURAL GAS GATHERING ENHANCEMENT ACT''; AND H.R. 1587, 
               ``ENERGY INFRASTRUCTURE IMPROVEMENT ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Friday, June 20, 2014

                               __________

                           Serial No. 113-75

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                      ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-391 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
          
          
      
      
      
      
      
      
      
      
      
      
      
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Matt Cartwright, PA
Rob Bishop, UT                       Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Paul C. Broun, GA                    Jared Huffman, CA
John Fleming, LA                     Alan S. Lowenthal, CA
Glenn Thompson, PA                   Tony Caardenas, CA
Cynthia M. Lummis, WY                Rauul M. Grijalva, AZ
Dan Benishek, MI                     Colleen W. Hanabusa, HI
Jeff Duncan, SC                      Joe Garcia, FL
Paul A. Gosar, AZ                    Katherine M. Clark, MA
Bill Flores, TX                      Vacancy
Markwayne Mullin, OK                 Vacancy
Steve Daines, MT                     Vacancy
Kevin Cramer, ND                     Peter A. DeFazio, OR, ex officio
Vacancy
Doc Hastings, WA, ex officio
                                 ------                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Friday, June 20, 2014............................     1

Statement of Members:
    Cramer, Hon. Kevin, a Representative in Congress from the 
      State of North Dakota......................................    11
        Prepared statement of....................................    12
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey..............................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Lund, Nicholas, Program Manager of Landscape Conservation, 
      National Parks Conservation Association....................    26
        Prepared statement of....................................    28
    Mall, Amy, Senior Policy Analyst, Natural Resources Defense 
      Council....................................................    22
        Prepared statement of....................................    23
    Nedd, Michael, Assistant Director, Minerals and Realty 
      Management, Bureau of Land Management, U.S. Department of 
      the Interior, Accompanied by Herbert C. Frost, Regional 
      Director, Alaska Region, National Park Service, U.S. 
      Department of the Interior.................................    30
        Prepared statement of....................................    31
    Santa, Donald F., President and CEO, Interstate Natural Gas 
      Association of America.....................................    18
        Prepared statement of....................................    19
    Soth, Jeffrey, Legislative and Political Director, 
      International Union of Operating Engineers.................    13
        Prepared statement of....................................    14
        Questions submitted for the record by Chairman Lamborn...    17

Additional Material Submitted for the Record:
    Clean Air Task Force, CATF Fact Sheet: Bakken Flaring in 
      Focus: A Close Look at Natural Gas Flaring in North Dakota.     8
    Hulsey, Blu, Vice President of Government and Regulatory 
      Affairs, Continental Resources, Prepared statement of......    48
    List of documents submitted for the record retained in the 
      Committee's official files.................................    51
    Southern Ute Indian Tribe, Letter submitted for the record on 
      H.R. 4293..................................................    49
    The Wilderness Society, Letter submitted for the record on 
      H.R. 1587..................................................     6
                                     


 
LEGISLATIVE HEARING ON H.R. 4293, TO AUTHORIZE THE APPROVAL OF NATURAL 
GAS PIPELINES AND ESTABLISH DEADLINES AND EXPEDITE PERMITS FOR CERTAIN 
NATURAL GAS GATHERING LINES ON FEDERAL LAND AND INDIAN LAND, ``NATURAL 
   GAS GATHERING ENHANCEMENT ACT''; AND H.R. 1587, TO AUTHORIZE THE 
  SECRETARY OF THE INTERIOR AND THE SECRETARY OF AGRICULTURE TO ISSUE 
  PERMITS FOR RIGHTS-OF-WAY, TEMPORARY EASEMENTS, OR OTHER NECESSARY 
 AUTHORIZATIONS TO FACILITATE NATURAL GAS, OIL, AND PETROLEUM PRODUCT 
  PIPELINES AND RELATED FACILITIES ON ELIGIBLE FEDERAL LANDS, AND FOR 
       OTHER PURPOSES, ``ENERGY INFRASTRUCTURE IMPROVEMENT ACT''

                              ----------                              


                         Friday, June 20, 2014

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 9:34 p.m., in 
room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Lummis, Mullin, Cramer; 
Holt, Costa, Lowenthal, and Garcia.
    Mr. Lamborn. The committee will come to order. The Chairman 
notes the presence of a quorum, which, under Committee Rule 
3(e), is two Members.
    The Subcommittee on Energy and Mineral Resources is meeting 
today to hear testimony on a legislative hearing on two bills: 
H.R. 4293, introduced by my colleague, Representative Kevin 
Cramer of North Dakota, to authorize the approval of natural 
gas pipelines and establish deadlines and expedite permits for 
certain natural gas gathering lines on Federal land and Indian 
land, the ``Natural Gas Gathering Enhancement Act''; and H.R. 
1587, introduced by my colleague, Representative Marino, to 
authorize the Secretary of the Interior and the Secretary of 
Agriculture to issue permits for rights-of-way, temporary 
easements, or other necessary authorizations to facilitate 
natural gas, oil, and petroleum product pipelines and related 
facilities on eligible Federal lands and for other purposes, 
the ``Energy Infrastructure Improvement Act.''
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member of the subcommittee. 
However, I ask unanimous consent to include any other Members' 
opening statements in the hearing record, if submitted to the 
clerk by close of business today.
    [No response.]
    Mr. Lamborn. Hearing no objections?
    Dr. Holt. No objection.
    Mr. Lamborn. So ordered. I now recognize myself for 5 
minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. I would like to thank our witnesses for being 
with us today. Today the Natural Resources Committee, 
Subcommittee on Energy and Mineral Resources, is meeting for a 
legislative hearing on two bills: H.R. 4293, the ``Natural Gas 
Gathering Enhancement Act''; and H.R. 1587, the ``Energy 
Infrastructure Improvement Act.'' These bills aim to expedite 
the permitting process for pipelines, gathering lines, and 
field compression units. Clarifying this process will allow for 
increased amounts of natural gas to be produced in areas where 
huge quantities of this resource are flared, due to lack of 
infrastructure to transport the natural gas.
    It is no secret the energy boom has brought tremendous 
economic benefits to the United States. Unfortunately, massive 
quantities of natural gas are flared every year, due to a 
serious lack of infrastructure to transport it.
    For example, in North Dakota, companies are forced to flare 
approximately one-third of the natural gas produced each day. 
This equates to approximately $1.4 million in natural resources 
being wasted every day. Flaring this resource takes it off the 
market, therefore depriving Federal, State, and local 
governments of revenue, inhibiting job creation, and reducing 
energy security.
    H.R. 4293, the ``Natural Gas Gathering Enhancement Act,'' 
was introduced by Congressman Cramer and seeks to streamline 
the permitting process for natural gas gathering lines and the 
associated field compression unit. It allows the Secretary of 
the Interior to utilize categorical exclusions to issue various 
notices of rights-of-way to ensure that this infrastructure can 
be permitted in a timely fashion, and that the project can move 
forward. New infrastructure will supply the transportation 
capacity that is needed to reduce the need for flaring, and 
allows for increased production of natural gas.
    H.R. 1587, the ``Energy Infrastructure Improvement Act,'' 
sponsored by Congressman Marino, will update the U.S. Code to 
reflect modern energy developments. Statutes enacted 100 years 
ago authorize the Secretary of the Interior to approve rights-
of-way on lands managed by the National Park Service for 
electrical and telephone lines, water pipes and pipelines, and 
canals and ditches.
    However, it is interpreted to exclude natural gas 
pipelines. As a result, each time a company seeks to expand, 
modify, or construct a natural gas pipeline across lands 
managed by the National Park system, Congress has to pass a 
separate piece of legislation for that particular project. In 
some cases this had added years to the project.
    This legislation would give the Department of the Interior 
explicit authority to permit natural gas pipelines over Federal 
lands. The bills we are discussing today will clarify and 
streamline the natural gas infrastructure permitting process. 
They will reduce the need for flaring and allow more natural 
gas to be brought to market. As a result of increased energy 
production, more jobs will be created, revenue will increase, 
and the United States can further distinguish itself as a 
global leader in energy production.
    Again, I would like to thank the witnesses for coming 
before our committee today, and I look forward to hearing your 
testimony.
    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    I'd like to thank our witnesses for being with us today. Today the 
Natural Resources Committee, Subcommittee on Energy and Mineral 
Resources is meeting for a legislative hearing on two bills--H.R. 4293, 
the ``Natural Gas Gathering Enhancement Act'' and H.R. 1587, the 
``Energy Infrastructure Improvement Act.'' These bills aim to expedite 
the permitting process for pipelines, gathering lines, and field 
compression units. Clarifying this process will allow for increased 
amounts of natural gas to be produced in areas where huge quantities of 
this resource are flared due to lack of infrastructure to transport the 
natural gas.
    It is no secret the energy boom has brought tremendous economic 
benefits to the United States. Unfortunately, massive quantities of 
natural gas are flared every year due to a serious lack of 
infrastructure to transport it. For example, in North Dakota, companies 
are forced to flare approximately one-third of the natural gas produced 
each day--this equates to approximately $1.4 million dollars in natural 
resources being wasted daily. Flaring this resource takes if off the 
market, therefore depriving Federal, State and local governments of 
revenue, inhibiting job creation, and reducing energy security. H.R. 
4293, the ``Natural Gas Gathering Enhancement Act'' was introduced by 
Congressman Cramer and seeks to streamline the permitting process for 
natural gas gathering lines and the associated field compression unit. 
It allows the Secretary of the Interior to utilize categorical 
exclusions to issue sundry notices or right-of-ways to ensure this 
infrastructure can be permitted in a timely fashion and the project can 
move forward. New infrastructure will supply the transportation 
capacity that is needed to reduce the need for flaring and allow for 
increased production of natural gas.
    H.R. 1587, the ``Energy Infrastructure Improvement Act,'' sponsored 
by Congressman Marino, will update the U.S. Code to reflect modern 
energy developments. Statues enacted in the early 20th century 
authorize the Secretary of the Interior to approve rights-of-ways on 
lands managed by the National Park Service for electrical and telephone 
lines, water pipes and pipelines, and canals and ditches--however it 
excludes natural gas pipelines. As a result, each time a company seeks 
to expand, modify or construct a natural gas pipeline across national 
park land, Congress has to pass a separate piece of legislation for the 
particular project. In some cases this has added years onto the 
project. This legislation would give the Department of the Interior 
explicit authority to permit natural gas pipelines over all Federal 
lands.
    The bills we are discussing today will clarify and streamline the 
natural gas infrastructure permitting process. They will reduce the 
need for flaring and allow more natural gas to be brought to market. As 
a result of increased energy production, more jobs will be created, 
revenue will increase, and the United States can further distinguish 
itself as a global leader in energy production.
    Again I'd like to thank the witnesses for coming before our 
committee today and I look forward to hearing your testimony.

                                 ______
                                 

    Mr. Lamborn. I would now like to recognize the Ranking 
Member, Representative Holt of New Jersey.

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Dr. Holt. I thank the Chair, and I thank the witnesses for 
being here today to discuss these two pieces of legislation.
    While I share the Administration's concerns with these two 
bills, I would like to commend the sponsors for acknowledging 
the fact that we are in the middle of an unprecedented oil and 
gas boom in this country, and that with the boom come 
challenges that need to be addressed.
    As the BP Statistical Review of World Energy put it earlier 
this week, ``The U.S. increase in 2013 was one of the biggest 
oil production increases the world has ever seen.'' That kind 
of production increase is going to create problems, and there 
will be conflicts with land owners, increased truck traffic in 
rural areas, concerns about air and water quality, induced 
earthquakes from wastewater injections, questions about health 
and safety. This sort of production boom doesn't happen in a 
vacuum; it happens in people's towns, off their shores, 
sometimes right in the backyards.
    So, whether it is the fact that the natural gas is being 
flared at unacceptable rates in North Dakota, or companies are 
trying to expand pipelines to carry all their new supplies, 
there are problems that Congress should be debating and 
addressing.
    Now, of course, some of the legislation that we have had 
here in Congress ignores, really ignores the fact that we are 
producing at a near-record clip. Next week the House is 
scheduled to debate yet another bill that would force land 
sales off the coasts and do other such things, and is even more 
obsolete and unnecessary this year than it was last year, when 
House Republicans forced it through to no effect, or the year 
before, when they did the same thing.
    This kind of legislation exists in a fantasy land where 
President Obama is somehow shutting down U.S. energy 
production, not in the real world, where we are the Number-one 
producer of natural gas, and soon to be the Number-one producer 
of oil. But on the bills we are here to talk about today, as I 
said, I want to give credit to the sponsors for finding, or at 
least seeking, solutions to real problems. I do not believe 
that these bills would be the right solutions.
    H.R. 1587 would take the responsibility for approving oil 
and gas pipelines through the national parks away from Congress 
and hand it to the National Park Service. It is a 
responsibility they don't want, and they have said so, and that 
they are not best suited to carry out.
    When Congress amended the Mineral Leasing Act of 1973 to 
allow land managers to site oil and gas pipelines on their 
lands, it specifically carved out the Outer Continental Shelf 
and Indian lands, which were both covered by their own laws. 
Congress retained the authority to site pipelines in the 
national parks. It wasn't an oversight or a mistake; it was 
deliberate and, I believe, with good reason.
    Congress has repeatedly, and in a timely manner, passed 
laws to authorize oil and gas pipelines through national parks, 
and I believe our parks are too precious a resource for us 
simply to abandon our responsibility in that matter.
    The other bill we are discussing today, H.R. 4293, would 
create a new statutory categorical exclusion to accelerate the 
siting of natural gas gathering lines in an attempt to cut down 
on flaring. Now, I appreciate the goal of the legislation, but 
I believe it is the wrong way to go about it.
    Congress enacted five categorical exclusions in the 
Republican-led Energy Policy Act of 2005, and those have 
created enormous problems, according to the Government 
Accountability Office. In particular, these exclusions don't 
even allow land managers to look for special circumstances that 
may make them inappropriate in a given situation. Legislative 
categorical exclusions are really clumsy tools that create more 
harm than good, and I believe we should be repealing the ones 
from 2005, not creating new ones.
    Now, more fundamentally, I simply haven't seen any evidence 
that the environmental review process for natural gas gathering 
lines is in any way responsible for the incredible amounts of 
flaring in North Dakota. Without that evidence, this bill 
appears to be a classic example of a solution in search of a 
problem or, perhaps, an attempt to accomplish something 
ideological and unrelated to the problem at hand.
    [The prepared statement of Dr. Holt follows:]
Prepared Statement of the Hon. Rush Holt, Ranking Member, Subcommittee 
                    on Energy and Mineral Resources
    Thank you Mr. Chairman, and I'd like to thank the witnesses for 
being here today to discuss these two pieces of legislation.
    While I share the Administration's concerns with these two bills, I 
would like to commend the sponsors for acknowledging the fact that we 
are, in fact, in the middle of an unprecedented oil and gas boom in 
this country, and that with this boom comes challenges that need to be 
addressed.
    After all, as the BP Statistical Review of World Energy put it 
earlier this week, ``the U.S. increase in 2013 was one of the biggest 
oil production increases the world has ever seen.''
    That kind of production increase is going to create problems. 
Conflicts with landowners. Increased truck traffic in rural areas. 
Concerns about air and water quality. Induced earthquakes from 
wastewater injection. Questions about health and safety. This sort of 
production boom doesn't happen in a vacuum. It happens in people's 
towns, off their shores, even right in their backyards.
    So whether it is the fact that natural gas is being flared at 
unacceptable rates in North Dakota, or companies are trying to expand 
pipelines to carry all their new supplies, there are problems that 
Congress should be debating and addressing.
    Of course, some legislation seems oblivious to the fact that we're 
producing at a near-record clip. Next week the House is scheduled to 
debate a bill that is even more obsolete and unnecessary this year than 
it was last year, when the House Republicans forced it through to zero 
effect. Or the year before, when they did the exact same thing.
    That legislation exists in a fantasy land where President Obama is 
somehow shutting down U.S. energy production, not in the real world 
where we're the #1 producer of natural gas, and soon to be the #1 
producer of oil.
    But on the bills we are here to talk about today: as I said, I give 
their sponsors credit for trying to find solutions to real problems. I 
do not believe, however, that these bills would be the right solutions.
    H.R. 1587 would take the responsibility for approving oil and gas 
pipelines through National Parks away from Congress, and hand it to the 
National Park Service, a responsibility they have told us they do not 
want.
    When Congress amended the Mineral Leasing Act in 1973 to allow land 
managers to site oil and gas pipelines on their lands, it specifically 
carved out the Outer Continental Shelf and Indian lands, which were 
both covered by their own laws. And Congress retained the authority to 
site pipelines in National Parks. This was not an oversight or a 
mistake. It was deliberate, and I believe with good reason.
    Congress has repeatedly, and in a timely manner, passed laws to 
authorize oil and gas pipelines through National Parks, and I believe 
our parks are too precious a resource for us to simply abrogate our 
responsibility in this matter.
    The other bill we are discussing today, H.R. 4293, would create a 
new statutory categorical exclusion to accelerate the siting of natural 
gas gathering lines in an attempt to cut down on flaring. I appreciate 
the goal of the legislation, but I believe this is the wrong way to go 
about it.
    Congress enacted five categorical exclusions in the Republican-led 
Energy Policy Act of 2005, and those have created enormous problems 
according to the Government Accountability Office. In particular, those 
exclusions don't even allow land managers to look for special 
circumstances that may make them inappropriate in a given situation. 
Legislative categorical exclusions are a ham-fisted tool that create 
more harm than good, and I believe we should be repealing the ones from 
2005, not creating new ones.
    But more fundamentally, I have simply not seen any evidence that 
the environmental review process for natural gas gathering lines is at 
all responsible for the incredible amounts of flaring in North Dakota. 
Without that evidence, this bill appears to be a classic example of a 
solution in search of a problem.
    With that, I would like to thank the witnesses again, and I yield 
back my time.

                                 ______
                                 

    Dr. Holt. So, with that, I would like to thank the 
witnesses. And I would also like to ask unanimous consent, Mr. 
Chairman, to include two items in the record: a letter from the 
Wilderness Society stating their concerns about H.R. 1587, and 
a document from the Clean Air Task Force, entitled, ``A Close 
Look at Natural Gas Flaring in North Dakota.''
    [No response.]
    Mr. Lamborn. With no objection, so ordered.
    [The information submitted by Dr. Holt for the record 
follows:]
              Letter Submitted for the Record on H.R. 1587

                            The Wilderness Society,
                                            Washington, DC,
                                                     June 20, 2014.

Hon. Doug Lamborn, Chairman,
House Subcommittee on Energy and Mineral Resources,
1334 Longworth House Office Building,
Washington, DC 20515.

Hon. Rush Holt, Ranking Member,
House Subcommittee on Energy and Mineral Resources,
1334 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Lamborn and Ranking Member Holt:

    The Wilderness Society appreciates the opportunity to submit this 
statement in regard to H.R. 1587, the Energy Infrastructure Improvement 
Act. We write to oppose the legislation based on serious concerns about 
several of its provisions and an overriding belief that this 
legislation is not needed. This bill could be harmful for some of our 
most important Federal lands, as well as needlessly overriding many 
important aspects of the National Environmental Policy Act (NEPA) and 
the benefits of meaningful public and local participation in developing 
new infrastructure.

        Section 2(d)(2) says the ``Secretary shall renew any right-of-
        way issued under this section, in accordance with the 
        provisions of this section, if the pipeline and its related 
        facility is in commercial operation and operated and maintained 
        in accordance with this section . . .'' (emphasis added). This 
        means that if changes are needed (e.g., better corrosion 
        prevention to prevent leaks on an older pipeline or to require 
        more advanced leak detection), it might be tougher for the 
        Bureau of Land Management (BLM) or the U.S. Fish and Wildlife 
        Service (FWS) to get them implemented. If BLM or FWS were 
        delayed in rectifying potential safety or environmental 
        concerns, that could greatly endanger Federal lands and waters 
        and the habitat and recreation opportunities they support.

        Section 2(e)(4) provides for judicial review for a pipeline 
        operator (called ``permittee'' in the bill) who does not like 
        the Secretary's decision on a pipeline right-of-way. What is 
        not clear, however, is whether the public can bring suit 
        against the pipeline operator if the operator is in non-
        compliance with its right-of-way authorization. There is also 
        no provision allowing the public to get involved on the 
        administrative level to challenge a Secretary's decision. This 
        goes counter to NEPA and the idea that public participation is 
        crucial in administrative decisionmaking on project-level 
        decisions.

        Section 2(f) further undermines NEPA by allowing Secretarial 
        modification--regardless of the extent of changes in pipeline 
        design or operation--without doing an Environmental Impact 
        Study, which could result in major changes to a pipeline 
        without public review. This is especially problematic since 
        NEPA analyses are crucial for projects that cross State and 
        international boundaries as well as public lands and waters. 
        Environmental Impact Statements are essential for assessing 
        routing, safety and land/water considerations.

        The Federal Energy Regulatory Commission (FERC) is responsible 
        for approving rights-of-way for interstate natural gas 
        pipelines and States approve rights-of-way for interstate 
        hazardous liquid (generally, oil) pipelines. This legislation 
        would trump FERC's process and State decisionmaking processes 
        on pipeline projects. The legislation is unnecessary, would be 
        harmful for public participation, and could endanger federal 
        lands, waters, and habitats given the lack of appropriate 
        public and local input and expertise.

    We look forward to working with the Chairman and the committee on 
any alternative measures needed to address concerns this legislation 
attempts to respond to.

            Sincerely,

                                             Chase Huntley,
                   Senior Director of Government Relations, Energy.

                                 ______
                                 

                     Report by Clean Air Task Force

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             

    Dr. Holt. Thank you.
    Mr. Lamborn. I would now recognize the author of H.R. 4293, 
Representative Kevin Cramer of North Dakota, for a brief 
statement about his bill.
    Mr. Cramer. Thank you, Mr. Chairman, and I thank the 
Ranking Member as well for agreeing to allow this brief opening 
statement.

    STATEMENT OF THE HON. KEVIN CRAMER, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NORTH DAKOTA

    Mr. Cramer. It is no secret that in North Dakota crude oil 
production has significantly increased. In fact, just announced 
this week that we have gone over a million barrels per day, 
with, of course, the good fortune of geology that is beneath 
private and State land, largely, and very little under Federal 
land. Obviously, the advent of horizontal drilling and 
hydraulic fracturing and common-sense energy development policy 
in North Dakota has resulted in this spike in production.
    While natural gas in the Bakken is considered a secondary 
or a byproduct of North Dakota's crude oil development, 
significant infrastructure investment and technological 
innovation is being done to ensure it is captured. Since 2006, 
approximately 9,600 miles of gas gathering line and 1.3 billion 
cubic feet per day of gas processing capacity has been 
installed with an investment of over $6 billion.
    Several laws and agencies may come into play when 
permitting a natural gas pipeline. But when Federal resources 
are developed, the National Environmental Policy Act (NEPA) 
applies to assess environmental impacts, if any. Environmental 
impact statements are required for proposed projects determined 
to have a significant impact on the environment. Environmental 
assessments are prepared when it is unclear whether a proposed 
project will have a significant impact, and a categorical 
exclusion is utilized if determined to have no significant 
environmental impact.
    Now, categorical exclusions alone save time and precious 
resources. But when applied to areas where a NEPA document has 
already been developed--this is an important distinction, a 
NEPA document has already been developed and scrutinized, it 
prevents duplicative efforts. And that is what this legislation 
does.
    Within a field or unit where an approved land use plan or 
an environmental document prepared pursuant to NEPA has already 
been done, and transportation of natural gas from one or more 
oil wells was seen as a reasonably foreseeable activity, and 
the gathering line will be located adjacent to an existing 
disturbed area for the construction of a road or well pad, a 
natural gas gathering line shall be considered an action that 
is categorically excluded for purposes of NEPA.
    We can reduce the workload on already strained Federal 
workers and agencies, and I have to tell you they are strained, 
as I am sure we will hear in a little bit. And we can protect 
the environment, we can reduce the amount of flaring, we can 
increase royalty revenues to the government, and we can get 
more natural gas to market. To me, this is just common sense.
    With regard to evidence, as Mr. Holt referred to, the fact 
of the matter is that statewide in North Dakota, or Bakken-
wide, if you want, we are flaring on non-Federal lands, we are 
flaring about 28 percent, while we are trying to get the 
infrastructure caught up. On Federal and Indian lands it is 40 
percent that is being flared. These are just facts. The Bureau 
of Indian Affairs is responsible, of course, for approving 
rights-of-way across lands held in trust for an Indian tribe. 
And BLM is for other Federal lands.
    So, with that, I look forward to the hearing and thank the 
witnesses again. Thank you for your indulgence.
    [The prepared statement of Mr. Cramer follows:]
   Prepared Statement of the Hon. Kevin Cramer, a Representative in 
                Congress from the State of North Dakota
    In North Dakota, crude oil production has significantly increased 
with the luck of geology beneath private and State land, the advent of 
horizontal drilling and hydraulic fracturing, and common sense energy 
development policy. While natural gas is considered a byproduct to 
North Dakota's crude oil development, significant infrastructure 
investment and technological innovation is being done to ensure it's 
captured. Since 2006 approximately 9,600 miles of gas gathering pipe 
and 1.3 billion cubic feet per day of gas processing capacity has been 
installed at over $6 billion.
    Several laws and agencies may come into play when permitting a 
natural gas pipeline. When Federal resources are developed the National 
Environmental Policy Act (NEPA) applies to assess environmental 
impacts, if any. Environmental impact statements (EIS) are required for 
proposed projects determined to have a significant impact on the 
environment, environmental assessments (EA) are prepared when it's 
unclear whether a proposed project will have a significant impact, and 
a categorical exclusion is utilized if determined to have no 
significant environmental impact.
    A categorical exclusion alone saves time and precious resources, 
but when applied to areas where a NEPA document has already been 
developed and scrutinized it prevents duplicative efforts, and that's 
what this legislation does. Within a field or unit where an approved 
land use plan or an environmental document prepared pursuant to NEPA 
has already been done, and transportation of natural gas from one or 
more oil wells was seen as a reasonably foreseeable activity, AND the 
gathering line will be located adjacent to an existing disturbed area 
for the construction of a road or well pad, a natural gas gathering 
line shall be considered an action that is categorically excluded for 
purposes of NEPA.
    We can reduce the work load on strained Federal workers, we can 
protect the environment, we can reduce the amount of flaring, we can 
increase royalty revenues, and we can get more natural gas to market. 
This is pure common sense.
    The fact is that statewide we are flaring about 28 percent on non-
Federal land and on Federal and Indian lands it is 40 percent.

                                 ______
                                 

    Mr. Lamborn. Thank you. We will now hear from our 
witnesses. I would like to welcome Mr. Jeffrey Soth, 
Legislative and Political Director for the International Union 
of Operating Engineers; Mr. Donald Santa, President and CEO of 
the Interstate Natural Gas Association of America; Ms. Amy 
Mall, Senior Policy Analyst for the Natural Resources Defense 
Council; Mr. Nicholas Lund, Program Manager of Landscape 
Conservation for the National Parks Conservation Association; 
and Mr. Michael Nedd, Assistant Director for Minerals and 
Realty Management for the Bureau of Land Management.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to 5 minutes. Our microphones are not 
automatic, so you need to turn them on when you are ready to 
begin.
    I also want to explain how our timing lights work. When you 
begin to speak, our clerk will start the timer, and a green 
light will appear. After 4 minutes, a yellow light will appear. 
And at that time you should begin to conclude your statement. 
At 5 minutes the red light will come on. You may finish your 
sentence, but at that time I ask that you stop your statement.
    Shortly I will be turning over the gavel to Representative 
Cramer of North Dakota.
    Mr. Soth, you may begin.

STATEMENT OF JEFFREY SOTH, LEGISLATIVE AND POLITICAL DIRECTOR, 
           INTERNATIONAL UNION OF OPERATING ENGINEERS

    Mr. Soth. Thank you, Mr. Chairman. It is an honor to join 
you and members of the subcommittee for what operating 
engineers believe is a critical conversation about the future 
of the natural gas industry, with a particular focus on the 
pipeline segment of it. My name is Jeffrey Soth. I am the 
Legislative and Political Director of the International Union 
of Operating Engineers. The union represents almost 400,000 men 
and women in the United States and Canada.
    I would like to touch on three things quickly this morning 
in my testimony. First, I will cover the role that operating 
engineers play in the pipeline industry. Second, I will share 
some economic analysis and data with you. And last, I will 
speak more directly to the legislation, the two bills before 
the subcommittee this morning.
    First, operating engineers are one of the key occupations 
directly employed in the construction of this Nation's energy 
infrastructure. Every day across the United States, thousands 
of our members are building the Nation's pipelines, power 
plants, and natural gas wellpads. The IUOE is one of four 
unions signatory to the National Pipeline Agreement. In 2013, 
operating engineers performed nearly 14 million hours of work 
on all types of pipelines, from gathering lines to transmission 
lines. The pipeline industry is indeed at the heart of work 
opportunities for members of the IUOE.
    Now I would like to turn quickly to some broader industry 
dynamics and economics. The development of the natural gas 
resources in this country has really presented an amazing 
opportunity. It also has created a number of policy and 
regulatory challenges for decisionmakers. But in order to 
capitalize on this opportunity presented by the abundant 
American natural resource, operating engineers strongly believe 
that the permitting and regulatory framework for pipelines must 
be updated, ensuring that domestic oil and gas industry 
flourishes in a safe and productive way.
    I would like to share with you a quick look at employment 
in the pipeline industry. I have shared with you a couple of 
graphs that give you a visual look at some of the employment 
picture in the oil and gas pipeline industry group of the 
construction sector. As you can see, since the start of the 
Great Recession in December 2007, the industry has grown over 
26 percent, reaching an all-time high in April.
    And if I may, Chairman, let me repeat that. The United 
States today has seen an all-time high in oil and gas pipeline 
construction employment, and that is really critical. And what 
is particularly noteworthy is that, during the same time, and 
you will see in the next graph that during the same time 
construction employment has plummeted. We have lost about 20 
percent of all construction workers; about 1 in 5 construction 
workers in the country over that same period have left the 
industry. That makes what is happening in natural gas 
particularly noteworthy, and has allowed that sector to counter 
some of the worst employment losses we have seen in 
construction since the Great Depression.
    As you know, dramatic growth is expected in the natural gas 
industry. Our friends at INGAA have made dramatic estimates 
about potentially 61,000 miles of additional midstream natural 
gas pipeline necessary through 2030, with as much as $10 
billion necessary annually. IHS Global finds that about $8 
billion a year could be invested in oil and gas industry for 
just gathering pipelines, not including distribution and 
transmission. That is a lot of potential, obviously, and we 
would like to be able to capture that.
    And finally, I would like to turn more directly to the 
legislation before the subcommittee. Operating engineers 
believe that we must forge bipartisan agreements for the oil 
and gas permitting in this country. The bottom line is that 
anachronistic, out-of-date regulations prevent job growth, and 
it is essential that American energy policy keep pace with the 
innovations that are occurring in the industry.
    The Natural Gas Gathering Enhancement Act reflects the 
simple modernization of environmental permitting of gathering 
lines when there is clearly no significant environmental 
impact. Consistently issuing a finding of ``no significant 
environmental impact'' adds no environmental value to the 
permitting process. Clearly, time, energy, and money of 
regulatory authorities could be better spent elsewhere. H.R. 
4293 is a common-sense step to modernize this Nation's 
permitting process for natural gas pipelines.
    Similarly, the Energy Infrastructure Improvement Act simply 
clarifies the authority to issue easements and permits to build 
on Federal lands. It is a common-sense step that operating 
engineers are pleased to see this kind of technical correction 
made to the law.
    The United States should continue modernizing its 
regulatory approach to meet the needs of the growing domestic 
energy industry, and to encourage job growth. We believe the 
legislation before you will do just that, and we appreciate the 
committee's leadership and your leadership, Representative 
Cramer, on these two bills. And we thank you for the 
opportunity to testify this morning. Thank you.
    [The prepared statement of Mr. Soth follows:]
Prepared Statement of Jeffrey Soth, Legislative and Political Director, 
 International Union of Operating Engineers on H.R. 4293 and H.R. 1587
    Thank you for the invitation to join you this morning, Chairman 
Lamborn. It is an honor to join you and members of the subcommittee for 
what the Operating Engineers believe is a critical conversation 
regarding the development of the natural gas industry in the United 
States, with particular focus on the regulatory framework for 
pipelines.
    My name is Jeffrey Soth. I am the Legislative and Political 
Director of the International Union of Operating Engineers (IUOE). The 
International Union of Operating Engineers represents almost 400,000 
men and women in the United States and Canada. Operating Engineers are 
one of the key occupations directly employed in the construction and 
maintenance of this Nation's energy infrastructure, including natural 
gas infrastructure.
    Every day across the United States thousands of IUOE members are 
building the Nation's natural gas pipelines, power plants, and natural 
gas well pads. Operating Engineers are also seeking other employment 
opportunities in the natural gas supply chain. For example, thousands 
of IUOE members in the Upper Mississippi Basin excavate the silica sand 
that is essential to the hydraulic fracturing process. In the coming 
years, members of the IUOE also expect to build liquefied natural gas 
export facilities along the United States and Canadian coasts.
    Most of the Operating Engineers engaged in the construction 
industry run bulldozers, backhoes, cranes, and excavators--the 
traditional heavy equipment operated by members of the union. To 
perform this work at the highest levels, members of the Operating 
Engineers union receive extensive craft training through on-the-job 
apprenticeship. Local unions of the IUOE, in partnership with their 
contractor-employers, invest over $107 million annually in construction 
training. But the work opportunities around the natural gas industry 
also require specialization within the Operating Engineer craft.
    What I would like to focus on this morning is the role that members 
of the IUOE play in the pipeline industry. The IUOE is one of four 
unions signatory to the National Pipeline Agreement. In 2013, Operating 
Engineers performed nearly 14 million hours of work on all manner of 
pipeline projects, from gathering lines to mainline transmission 
projects. The pipeline industry is a key sector to members of the 
Operating Engineers. It is at the heart of IUOE members' opportunities 
for work.
    The pipeline industry has a unique set of skill requirements and 
Operating Engineers are perfectly suited to what the industry demands--
the safest, most productive workforce available. That is why IUOE 
members develop their skills through a robust national training program 
in partnership with the Pipe Line Contractors Association to meet that 
specific part of the industry's needs.
    After that summary of who we are and how we fit into the sector, 
let me turn to the broader industry dynamics. The development of 
American natural gas resources has presented the country an amazing 
opportunity; it has also created a number of policy and regulatory 
challenges for decisionmakers.
    In order to keep pace, in order to capitalize on the opportunity 
presented by this abundant American natural resource, the Operating 
Engineers strongly believe that Congress must ensure that there is an 
updated, streamlined permitting and regulatory framework, ensuring that 
the domestic oil and gas industry flourishes in a safe, predictable 
way.
    First, I wanted to share with you some numbers that help describe 
what has occurred in the pipeline industry as a result of the increase 
in domestic oil and gas production. In the first chart attached to my 
testimony, you can see employment in the oil and gas industry group 
within the construction industry. It shows dramatic growth since the 
start of the Great Recession in December 2007. Since that time, the 
industry has grown over 26 percent. According to the most recent data 
available from the Bureau of Labor Statistics, employment in the oil 
and gas industry hit an all-time high. That is especially noteworthy 
and important because of what has occurred in the broader construction 
sector during the same period. You can see that construction has lost 
over 1.5 million jobs over the same timeframe. Although a small part of 
the overall industry, the burgeoning natural gas industry has helped 
the broader construction sector counter some of the worst employment 
losses seen since the Great Depression.
    Family sustaining jobs in the oil and gas pipeline construction 
industry group are created at higher than average wages. Wage estimates 
for production and nonsupervisory workers in the oil and gas pipeline 
industry are over $26 an hour, according to the most recent data from 
the Bureau of Labor Statistics. That compares to $19.75 an hour for 
production workers in all of the private sector.
    Please allow me to turn more directly to the legislation before the 
subcommittee. The Operating Engineers believe that Congress must work 
to forge bipartisan agreements around common-sense changes to oil and 
gas permitting processes. The bottom line is that an anachronistic 
regulatory structure inhibits the development of the industry and the 
jobs that go along with it.
    The Interstate Natural Gas Association of America (INGAA) estimated 
in 2009 that North America may need more than 61,000 miles of 
additional natural gas pipelines through 2030. INGAA estimates that 
investments in midstream natural gas pipelines could reach around $10 
billion annually for the next 20 years. An IHS Global study finds that 
$8 billion a year could be invested in just gathering pipelines, not 
including distribution and transmission, for both the oil and gas 
industry.
    I also wanted to mention to the subcommittee that the IUOE is part 
of a newly formed industry group, the Energy Equipment and 
Infrastructure Alliance (EEIA), the voice of the shale energy supply 
chain. The EEIA pulls together a number of key industry players beyond 
oil and natural gas companies themselves. It includes contractors, 
materials and equipment suppliers, and essential unions in the 
industry. EEIA has commissioned a new economic study that should 
provide keen new insights into the future of the industry, including a 
new, updated analysis of jobs, labor income, and dollar outputs by the 
sector. We look forward to sharing the study with the committee when it 
is formally released in July.
    It is essential that the American energy policy support the 
development of this domestic resource by keeping pace with the dramatic 
innovations that are occurring in the sector. In a number of cases, the 
growth in the industry has simply outpaced the Nation's regulatory 
framework. That is how the Operating Engineers view the two pieces of 
legislation under consideration by the subcommittee.
    Representative Cramer's legislation, H.R. 4293, the Natural Gas 
Gathering Enhancement Act, reflects a straightforward modernization of 
the environmental permitting of gathering lines when there is clearly 
no significant environmental impact. The process of developing an 
Environmental Assessment and consistently issuing a Finding of No 
Significant Impact (FONSI) adds no environmental or economic value to 
the permitting process. It merely adds procedural impediments and 
associated cost for both developers and regulators without associated 
improvements in environmental quality. The time, energy, and money of 
regulatory authorities should be spent elsewhere in the permitting 
process. It is also my understanding that an agency could still conduct 
an Environmental Assessment and take a gathering line on Federal or 
tribal land through the process of determining whether, in fact, there 
is a significant environmental impact. Representative Cramer's 
legislation is a common-sense step to modernize the Nation's permit 
processes for natural gas pipelines.
    Similarly, Congressman Marino's bill, the Energy Infrastructure 
Improvement Act, merely clarifies the authority of the Secretary of 
Interior and Secretary of Agriculture to issue easements and permits to 
construct pipelines on eligible Federal lands. The Operating Engineers 
are pleased to see this technical correction made to the law so that we 
may continue to responsibly develop this important American energy 
resource, and with it the jobs of Operating Engineers and other workers 
who depend on it for their livelihoods.
    The United States should continue updating and modernizing its 
regulatory approach to meet the needs of the growing domestic energy 
industry. We believe the legislation before you will do just that and 
we appreciate the committee's leadership to advance these two bills.
    Thank you for the opportunity to testify this morning, Chairman 
Lamborn.

                                 ______
           
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            

Questions Submitted for the Record by Chairman Lamborn to Jeffrey Soth, 
 Legislative and Political Director, International Union of Operating 
                               Engineers
    Question 1. In your testimony you say these bills modernize the 
approach to pipeline regulation and meet the needs of the growing 
energy industry. What current impacts to production and job creation 
are we seeing from the hurdles imposed by the current process and what 
will we see if permitting process is modernized and improved?

    Answer. Literally, waiting for an Act of Congress to approve 
rights-of-way and easements through National Parks, for example, places 
unnecessary obstacles to the permitting of essential energy 
infrastructure. In some cases, there are existing utility corridors 
through parks that should be considered desirable, already-disturbed 
surfaces well suited for oil and gas pipelines. Updating and clarifying 
the authority of Secretaries of Agriculture and Interior to approve 
easements would eliminate the need for statutory approval and place the 
authority where it should have been all along--with natural-resource 
agencies.
    Similarly, the Bureau of Land Management testified that they did 
not know of a situation where there was anything other than a Finding 
of No Significant Impact (FONSI) issued for gathering lines under the 
conditions imposed by H.R. 4293. In that case it is hard to imagine 
what value the process of making a determination delivers in terms of 
environmental integrity; the process of issuing a determination (and, 
ultimately, a FONSI) merely presents an obstacle--averaging 3 months, 
according to BLM testimony--to securing the necessary permits to 
construct gathering lines. Clearly, the process stands in the way of 
building pipeline infrastructure and the jobs that go along with it.
    The Keystone XL is a high-profile example of the hurdles imposed by 
the anachronistic regulatory framework for trans-boundary oil and gas 
pipeline projects. The Presidential Permit process, which lives only by 
Executive Order and administrative fiat, is cumbersome, uncertain, and 
delivers important responsibilities for the environmental review of 
projects to a non-resource agency, the State Department. Although not 
necessarily in the jurisdiction of the Committee on Natural Resources, 
the IUOE supports H.R. 1900 that restructures the process for 
permitting this type of trans-boundary infrastructure. The failure to 
permit Keystone XL has left thousands of Operating Engineers' jobs on 
the drawing board, denying members of the union with concrete 
opportunities to go to work.
    Much more pipeline infrastructure is necessary in order to realize 
America's domestic energy future. While the oil and gas pipeline 
industry group of the construction sector is at an all-time high 
currently, reaching over 140,000 jobs for the first time in American 
history, more jobs opportunities await Operating Engineers and other 
construction craftworkers. The International Union of Operating 
Engineers appreciates the leadership of your committee and the sponsors 
of H.R. 15787 and H.R. 4293 on these vital issues.
    Thank you again for the opportunity to testify before the Committee 
on Natural Resources. The International Union of Operating Engineers 
looks forward to working with you to enact this legislation into law.

                                 ______
                                 

    Mr. Cramer [presiding]. Thank you, Mr. Soth.
    Mr. Santa, you are recognized for 5 minutes.

  STATEMENT OF DONALD F. SANTA, PRESIDENT AND CEO, INTERSTATE 
               NATURAL GAS ASSOCIATION OF AMERICA

    Mr. Santa. Good morning, Mr. Cramer, Ranking Member Holt, 
and members of the subcommittee. My name is Donald Santa, and I 
am President and CEO of the Interstate Natural Gas Association 
of America, or INGAA. INGAA represents interstate natural gas 
transmission pipeline operators in the United States and 
Canada. Our 26 members account for virtually all of the major 
interstate natural gas transmission pipelines in North America, 
and operate about 200,000 miles of transmission pipe in the 
United States.
    Thank you for the opportunity to share INGAA's views on 
H.R. 1587, the Energy Infrastructure Improvement Act, 
introduced by Representative Tom Marino. This bill addresses a 
process problem rooted in statute that affects permitting for 
natural gas pipelines. Largely through a historical oversight, 
the current law governing lands administered by the National 
Park Service authorizes the administrative review and approval 
of rights-of-way for certain enumerated types of 
infrastructure, but not rights-of-way for natural gas 
pipelines.
    Natural gas pipelines were not common when these statutes 
were enacted in the early 20th century. Consequently, when 
Congress enumerated the types of rights-of-way that could be 
approved by the National Park Service or the Secretary of the 
Interior, natural gas pipelines were not listed. Electric 
facilities, communications facilities, mining facilities, and 
even telegraph lines and water flumes are listed in the 
existing statute, but not natural gas pipelines. The statute 
mentions pipelines only in the context of water transportation.
    The result is this: while the National Park Service has 
authority to approve certain types of rights-of-way, it cannot 
approve rights-of-way for natural gas pipelines absent 
enactment of project-specific legislation by the Congress. In 
other words, the current law puts Congress in the role of being 
a permitting agency for pipelines seeking authority to traverse 
NPS lands. This cumbersome process creates unnecessary delays 
and, in some cases, illogical outcomes. This framework 
needlessly consumes the time and resources of the Congress, and 
compels the National Park Service or the Secretary, the 
operators of natural gas pipelines, and all affected 
stakeholders to engage in a duplicative process in which both 
congressional action and administrative approval are required 
to grant the same right-of-way.
    The National Park Service or the Secretary should have the 
authority to review and approve pipeline rights-of-way, in the 
same manner as other types of rights-of-way, as long as such 
approval is not inconsistent or detrimental to the primary 
purposes of these lands. H.R. 1587 grants such authority, and 
represents a long-overdue amendment to the law. INGAA agrees 
with the intent behind Representative Marino's efforts, and 
therefore endorses H.R. 1587.
    Mr. Chairman, thank you again for allowing INGAA to share 
its views on this matter. Given the need to expand our natural 
gas infrastructure to keep pace with demand growth, we need to 
ensure that permitting questions are handled in an efficient 
and effective manner. The severe winter that we just 
experienced amply demonstrates the need and the importance of 
making these decisions to benefit American consumers. Natural 
gas pipeline companies do not look lightly on the question of 
placing energy infrastructure on lands administered by the 
National Park Service. Where there is a public need to locate 
pipelines across these areas, though, or to expand existing 
pipelines in these areas, we need a better and more efficient 
process.
    We thank Representative Marino for introducing his bill and 
starting Congress on the path toward creating a better process.
    [The prepared statement of Mr. Santa follows:]
     Prepared Statement of Donald F. Santa, President and CEO, the 
       Interstate Natural Gas Association of America on H.R. 1587
    Good morning Chairman Lamborn, Ranking Member Holt and members of 
the subcommittee. My name is Donald F. Santa, and I am President and 
CEO of the Interstate Natural Gas Association of America, or INGAA. 
INGAA represents interstate natural gas transmission pipeline operators 
in the United States and Canada. Our 26 members account for virtually 
all of the major interstate natural gas transmission pipelines in North 
America and operate about 200,000 miles of transmission pipe in the 
United States.
    Thank you for the opportunity to share INGAA's views on H.R. 1587, 
the ``Energy Infrastructure Improvement Act'' introduced by Rep. Tom 
Marino. This bill addresses a process problem rooted in statute that 
affects permitting for natural gas pipelines. Largely through a 
historical oversight, the current law governing lands administered by 
the National Park Service (NPS) authorizes the administrative review 
and approval of rights-of-way for certain enumerated types of 
infrastructure, but not rights-of-way for natural gas pipelines. 
Natural gas pipelines were not common when these statutes were enacted 
in the early 20th century. Consequently, when Congress enumerated the 
types of rights-of-way that could be approved by the NPS and/or the 
Secretary of the Interior (the Secretary), natural gas pipelines were 
not listed.\1\ Electric facilities, communications facilities, mining 
facilities, and even telegraph lines and water flumes are listed in the 
existing statute, but not natural gas pipelines. The statute mentions 
``pipelines'' only in the context of water transportation.
---------------------------------------------------------------------------
    \1\ 16 U.S.C. Sec. 5 (1911) and 16 U.S.C. Sec. 79 (1901).
---------------------------------------------------------------------------
    The result is this: While the NPS has the authority to approve 
certain types of rights-of-way, it cannot approve rights-of-way for 
natural gas pipelines absent the enactment of project-specific 
legislation by the Congress. In other words, current law puts Congress 
in the role of being a ``permitting agency'' for pipelines seeking 
authority to traverse NPS lands. This cumbersome process causes 
unnecessary delays, and in some cases, illogical outcomes. This 
framework needlessly consumes the time and resource of the Congress and 
compels the NPS and/or the Secretary, the operators of natural gas 
pipelines and all affected stakeholders to engage in duplicative 
processes in which both Congressional action and administrative 
approval are required to grant the same right-of-way. The NPS, and/or 
the Secretary, should have the authority to review and approve pipeline 
rights-of-way in the same manner as other types of rights-of-way, as 
long as such approval is not inconsistent or detrimental to the primary 
purposes of these lands. H.R. 1587 grants such authority, and 
represents a long-overdue amendment to the law. INGAA agrees with the 
intent behind Rep. Marino's efforts, and therefore endorses H.R. 1587.
Current Law
    As mentioned, the statutes governing Federal lands include sections 
authorizing the review and approval of rights-of-way across Federal 
lands. These provisions, originally enacted in 1901 and 1911, authorize 
the Department of the Interior (DOI) to approve rights-of-way 
associated with specific types of infrastructure. For example, Title 
16, Section 5, authorizes the head of the department with jurisdiction 
over the lands to approve rights-of-way for:

        electrical poles and lines for the transmission and 
        distribution of electrical power, and for poles and lines for 
        communication purposes, and for radio, television, and other 
        forms of communication transmitting, relay, and receiving 
        structures and facilities, to the extent of 200 feet on each 
        side of the center line of such lines and poles and not to 
        exceed 400 feet by 400 feet for radio, television, and other 
        forms of communication transmitting, relay, and receiving 
        structures and facilities . . ..

    Also in Title 16, Section 79, the Secretary is authorized to 
approve rights-of-way across public lands for:

        electrical plants, poles, and lines for the generation and 
        distribution of electrical power, and for telephone and 
        telegraph purposes, and for canals, ditches, pipes and pipe 
        lines, flumes, tunnels, or other water conduits, and for water 
        plants, dams, and reservoirs used to promote irrigation or 
        mining or quarrying, or the manufacturing or cutting of timber 
        or lumber, or the supplying of water for domestic, public, or 
        any other beneficial uses to the extent of the ground occupied 
        by such canals, ditches, flumes, tunnels, reservoirs, or other 
        water conduits or water plants, or electrical or other works 
        permitted hereunder, and not to exceed 50 feet on each side of 
        the marginal limits thereof, or not to exceed 50 feet on each 
        side of the center line of such pipes and pipe lines, 
        electrical, telegraph, and telephone lines and poles, by any 
        citizen, association, or corporation of the United States.

    Section 5 was amended in 1952 to add the references to radio, 
television and other communications facilities. Other than that, the 
law governing this area has remained largely unchanged for more than 
100 years.\2\
---------------------------------------------------------------------------
    \2\ The communications-related amendment is the only major 
amendment since original enactment. There have been some re-
codification changes over the years, but nothing altering the substance 
of the statute in any major way.
---------------------------------------------------------------------------
    The Mineral Leasing Act of 1920 \3\ (MLA) includes a provision 
granting either the Secretary or the appropriate agency head the 
authority to approve rights-of-way ``through any Federal lands'' for 
``the transportation of oil, natural gas, synthetic liquid or gaseous 
fuels, or any refined product produced therefrom . . ..'' The MLA, 
however, defines ``Federal lands'' to mean ``all lands owned by the 
United States except lands in the National Park System . . ..'' For 
lands within the National Park System, the statute defers to the 
provisions in Title 16, which do not include natural gas pipelines 
among the enumerated forms of infrastructure.
---------------------------------------------------------------------------
    \3\ 30 U.S.C. Sec. 181 et seq.
---------------------------------------------------------------------------
Practice for Many Years
    Even with this apparent oversight, DOI assumed for decades that it 
possessed the authority to approve natural gas pipeline rights-of-way 
across NPS lands. It made this assumption based on the general spirit 
of the law. And based on this assumption, DOI granted natural gas 
pipeline rights-of-across these lands during the major build-out of the 
Nation's natural gas transmission system in the 1950s and 1960s. 
Pipelines were not sited on NPS lands haphazardly or carelessly. 
Instead, operators chose to seek such approvals from the NPS only when 
viable alternatives were unavailable, when the impact of the right-of-
way was viewed as negligible, and/or when facilities within NPS lands 
(such as concessionaires) needed natural gas service.
    This process changed in the late 1980s after a DOI legal analysis 
in connection with an application for a pipeline right-of-way across 
NPS lands concluded that the statute did not authorize such action. In 
denying the application, DOI stated that it lacked the authority under 
Title 16 to approve pipeline rights-of-way, other than those pipelines 
associated with water transportation.\4\ Since then, DOI has taken the 
position that any natural gas pipeline needing a right-of-way across 
NPS lands must first secure the enactment of specific authorizing 
legislation from Congress. Such legislation, however, does not grant 
the right-of-way sought by the pipeline operator. It only grants DOI 
the authority to approve the specific right-of-way if it so chooses.
---------------------------------------------------------------------------
    \4\ Since this decision, a number of bills have been enacted which 
allow the Secretary to authorize rights-of-way for existing natural gas 
pipelines on certain NPS lands. Examples include P.L. 107-223, P.L. 
101-573, and P.L. 105-329.
---------------------------------------------------------------------------
    In practice, pipeline operators seeking a NPS right-of-way now 
first seek to negotiate the terms and conditions for constructing the 
proposed pipeline (or altering an existing pipeline) with the NPS. If 
agreement is reached, the pipeline operator seeks congressional 
authorization with the support of the NPS. Given the vagaries of the 
legislative process, this step can take several years.
Recent Examples
    Mr. Chairman, this committee has dealt with several specific 
pipeline right-of-way bills in recent years. The most recent is the 
``Denali National Park Improvement Act'' (P.L. 113-33). The President 
signed this legislation last September, after 4 years of consideration 
in Congress. In brief, the legislation allows, among other things, the 
NPS to approve a right-of-way through the Denali National Park for a 
future natural gas transmission line to serve consumers in south-
central Alaska. The pipeline, if approved, would largely share an 
existing right-of-way with a highway through the park. This project is 
supported by the NPS.
    Another example is the ``New York City Natural Gas Supply 
Enhancement Act'' (P.L. 112-197), which was reported by this committee, 
enacted by Congress and signed by the President in November 2012. This 
law addresses a proposed lateral pipeline from the existing Transco 
pipeline in New York Bay to serve increased natural gas demand in 
Queens and Brooklyn. The lateral pipeline will be only about 3 miles 
long, but must cross under the Gateway National Recreation Area in 
order to come ashore in Brooklyn. The Gateway National Recreation Area 
includes Jacob Riis Park and Floyd Bennett Field, New York City's first 
airport. Congress approved the legislation after about 18 months of 
consideration. Again, the legislation did not approve the right-of-way 
permit; instead, it allowed DOI to consider the construction permit for 
possible approval. After an additional 19 months of review by DOI, the 
permit was approved just 2 weeks ago, and pipeline construction is now 
underway.
    A final example is the ``Delaware Water Gap National Recreation 
Area Natural Gas Pipeline Enlargement Act'' (P.L. 109-156), enacted in 
2005. This bill dealt with the expansion of the existing Columbia Gas 
Transmission pipeline. The pipeline had been built in 1948, and 
subsequently, in 1965, Congress created the Delaware Water Gap National 
Recreation Area which was situated on top of about 3.5 miles of the 
pipeline right-of-way. Under pre-existing agreements, the NPS was 
empowered to approve future expansions of the pipeline, to meet 
customer needs, for all but two parcels of land that the pipeline 
traversed. These two parcels included about 850 feet of the 3.5 miles 
of pipeline right-of-way in the park. When Columbia needed to repair 
and expand the pipeline in the early 2000s, it had to petition the 
Congress to enact a statute authorizing amendment of the right-of-way 
in those two parcels. Two years were needed to obtain the statutory 
authority needed to modify the terms of the right-of-way so that 
Columbia could replace 850 feet of 14-inch-diameter pipeline with a 
safe and more reliable 20-inch-diameter pipeline.
Reason for Legislation
    This process begs the question: Why should Congress involve itself 
in a specific right-of-way permit application in the first place? This 
question is appropriate, because the current law does not reflect a 
decision by the Congress to establish this process for natural gas 
pipelines as matter of policy, but rather results from the fact that 
natural gas pipelines were not among common forms of infrastructure 
during the first decade of the last century. It would be more efficient 
to relieve the Congress of the obligation to review all applications 
for natural gas pipeline rights-of-way across NPS lands and to 
authorize the Secretary to fulfill this role without the need for case-
specific statutory authority to grant a right-of-way if an application 
has merit. This is, in fact, how the myriad of other permits required 
for a new pipeline are processed now--by the agencies charged by 
Congress to be subject-matter experts and decisionmakers.\5\
---------------------------------------------------------------------------
    \5\ For example, the Bureau of Land Management, the U.S. Army Corps 
of Engineers, and the U.S. Fish and Wildlife Service.
---------------------------------------------------------------------------
    One more point is worth mention. As ``national park'' status is 
extended to lands that were not previously so designated, especially in 
the eastern part of the country, we believe this problem will continue 
to arise, for both existing and proposed natural gas pipelines, until 
clear administrative authority is created.
Conclusion
    Mr. Chairman, thank you again for allowing INGAA to share its views 
on this matter. Given the need to expand our natural gas infrastructure 
to keep pace with demand growth, we need to ensure that permitting 
questions are handled in an efficient and effective manner. The severe 
winter that we just experienced amply demonstrates the need, and the 
importance, of making these decisions to benefit American consumers. We 
do not look lightly on the question of placing energy infrastructure on 
lands administered by the NPS. Where there is a public need to locate 
pipelines across these areas, though, or to expand existing pipelines 
in these areas, we need a better and more efficient process. We thank 
Rep. Marino for introducing his bill and starting Congress on the path 
toward creating a better process.

                                 ______
                                 

    Mr. Cramer. Thank you, Mr. Santa, for your testimony.
    Ms. Mall, you are now recognized for 5 minutes.

STATEMENT OF AMY MALL, SENIOR POLICY ANALYST, NATURAL RESOURCES 
                        DEFENSE COUNCIL

    Ms. Mall. Thank you, Mr. Cramer, Mr. Holt, and members of 
the subcommittee, for inviting me to present NRDC's views on 
H.R. 4293, the Natural Gas Gathering Enhancement Act.
    Flaring is a serious environmental problem that needs to be 
addressed, and we are pleased that the committee is discussing 
it. Flares have produced a significant amount of CO2 that 
contributes to global warming, NOx, an ozone precursor, 
volatile organic compounds, methane, and particulate matter. 
Flaring of gas associated with oil wells in 2012 released more 
CO2 than 1.5 million passenger vehicles. So flaring must be 
eliminated, except for safety cases, to reduce environmental 
impacts and also waste.
    Federal policy currently allows gas to be flared royalty 
free, robbing U.S. taxpayers of revenue.
    The genuine need to eliminate flaring, however, is not a 
reason to waive environmental review of new gathering lines and 
compressor stations. Gathering lines and compressor stations 
themselves pose serious safety and environmental risks, 
including risks of explosion, leaks, water contamination, 
dangerous air pollution, habitat destruction, and severe noise.
    Yet gathering lines and compressor stations currently have 
too little environmental oversight, not too much. Gathering 
lines in rural areas are not regulated by the Pipeline and 
Hazardous Material Safety Administration, and regulations in 
non-rural areas are much too weak. While historically gathering 
lines were small and thought to be low-risk, gathering lines 
today can be as big as or bigger than transmission pipelines, 
and may operate at the same extremely high pressures.
    The Government Accountability Office (GAO), in a recent 
report, found that there is not even basic information on where 
gathering lines are, or whether any safety procedures are being 
observed. GAO concluded that pipeline safety officials are 
unable to assess and manage safety risks from unregulated 
gathering lines. No regulation means that there are no 
requirements for pipe thickness, strength, welding, burial 
depth, inspections, corrosion resistance, installation 
practices, periodic maintenance, or to record the location.
    The National Environmental Policy Act, or NEPA, process is, 
therefore, crucial to maximize the benefits of a project and 
minimize its health and environmental costs. Excluding projects 
from NEPA review or imposing arbitrary deadlines for issuing 
permits would shortcut the essential work needed to reduce 
risk, improve safety, and ensure all health and environmental 
threats are considered.
    While a project located adjacent to an existing disturbed 
area such as a road or a wellpad may seem like an innocuous 
location for a gathering line or compressor station, there may 
be new or cumulative impacts of additional large-scale 
industrial development. If those impacts have already truly 
been considered and vetted in a prior NEPA analysis, then under 
current law new analysis is not needed, which makes legislation 
unnecessary.
    And the Interior Department already has discretion under 
NEPA to establish administrative categorical exclusions, or 
CEs, where environmental review is genuinely unnecessary, and 
to take other action. For example, the Bureau of Land 
Management (BLM) is currently considering new rules to reduce 
waste, including flaring, under its current authorities. BLM 
has a duty under the law to minimize the waste of Federal oil 
and gas resources, and can and should use the full scope of its 
current authority to do so.
    Efforts to legislate CEs from NEPA are unnecessary, and 
have historically proven to be problematic. For example, after 
Section 390 of the 2005 Energy Policy Act created CEs for oil 
and gas projects, GAO analyzed them and found that BLM had 
issued more than 6,000 oil and gas drilling exemptions between 
Fiscal Year 2006 and 2008, but that the use of these exemptions 
often did not comply with either the law or BLM's guidance.
    The Federal Government can and should take other actions to 
reduce flaring. For example, expand the green completion 
requirement of the Clean Air Act to cover oil-producing wells, 
limit production and new well drilling to areas with sufficient 
pipeline resources, mandate maximum on-site and nearby use of 
captured gas and natural gas liquids, charge royalties on all 
flared gas, and limit the cumulative duration of flaring.
    While dramatically reducing flaring is a very important 
goal that we should all work to achieve, ignoring other 
environmental impacts to achieve this goal is not appropriate. 
NRDC, therefore, opposes H.R. 4293. We would be happy to work 
with the subcommittee to develop the right solutions to 
directly reduce flaring, as well as to reduce our dependence on 
fossil fuels and promote energy efficiency and clean energy. 
Thank you.
    [The prepared statement of Ms. Mall follows:]
    Prepared Statement of Amy Mall, Senior Policy Analyst, Natural 
                 Resources Defense Council on H.R. 4293
    Thank you Chairman Lamborn, Ranking Member Holt, and members of the 
subcommittee, for inviting me to present NRDC's views on H.R. 4293, the 
Natural Gas Gathering Enhancement Act.
    Flaring is a serious environmental problem that needs to be 
addressed. Flares produce significant amounts of CO2, contributing to 
global warming, as well as NOx, an ozone precursor, and volatile 
organic compounds, methane, and particulate matter. The genuine need to 
eliminate flaring, however, is not a reason to waive environmental 
review of new gathering lines and compressor stations. Gathering lines 
and compressor stations come with their own serious environmental 
hazards and the National Environmental Policy Act (NEPA) ensures that 
these risks are understood, that the public has an opportunity for 
review and input, and that better alternatives are considered. Efforts 
to legislate categorical exclusions from NEPA have historically created 
confusion and resulted in administrative abuses and the Department of 
the Interior already has discretion under NEPA to establish 
administrative CEs where appropriate and to take other action. While 
dramatically reducing flaring is an important goal we should all work 
to achieve, ignoring other environmental impacts to achieve this goal 
is not appropriate and NRDC therefore opposes H.R. 4293.
 flaring is a serious environmental problem that needs to be addressed
    Flares produce significant amounts of CO2, contributing to global 
warming. Flares also release NOx (an ozone precursor) as well as 
volatile organic compounds, methane, and particulate matter due to 
incomplete combustion. According to the Greenhouse Gas Reporting 
Program mandated by Congress, associated gas flaring released around 7 
million metric tons of CO2 in 2012, which is equal to the annual 
greenhouse gas emissions from more than 1.5 million passenger 
vehicles.\1\ Flaring must absolutely be eliminated, except for cases of 
safety, to reduce the environmental impacts of oil and gas production. 
It is also a waste of resources. Federal policy currently allows gas to 
be flared royalty-free, robbing U.S. taxpayers. Therefore, to protect 
the health of Americans and the planet and to protect our valuable 
mineral resources, the Federal Government should impose restrictions on 
flaring. It can do this by expanding the green completion requirement 
of the Clean Air Act to cover oil producing wells. Green completion is 
a process whereby operators capture gas from the completion phase that 
would otherwise be vented or flared. There should also be requirements 
that: (a) limit production and new well drilling to areas with 
sufficient pipeline resources; (b) mandate maximum onsite and nearby 
use of captured gas and natural gas liquids; (c) charge royalties on 
all flared gas; and (d) limit the cumulative duration of flaring. For 
example, the State of North Dakota is currently considering rules to 
reduce flare volume, the number of wells flaring, and the duration of 
flaring by, among other things, restricting production at wells that 
continue to flare beyond initial allowances.\2\
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency, Greenhouse Gas Reporting 
Program. (2013). Retrieved June 17, 2014, from http://www.epa.gov/
enviro/facts/ghg/customized.html.
    \2\ North Dakota Industrial Commission power point, March 3, 2014, 
https://www.dmr.nd.gov/oilgas/presentations/NDIC030314_100.pdf.
---------------------------------------------------------------------------
    The genuine need to eliminate flaring, however, is not a reason to 
waive environmental review of new gathering lines and compressor 
stations. This would be the equivalent of ``robbing Peter to pay 
Paul.'' Gathering lines and compressor stations themselves pose serious 
safety and environmental risks, including risks of explosion, leaks, 
water contamination, dangerous air pollution, and severe noise. 
Congress must not interfere with consideration and mitigation of those 
impacts when pursuing a solution to the problems of flaring. The 
National Environmental Policy Act (NEPA) requires that, where gathering 
lines and compressors could significantly affect the human environment, 
these impacts are understood and alternatives for reducing them are 
explained to the affected public and considered by officials; indeed, 
the very premise of NEPA is that a comprehensive review of significant 
environment-related impacts informs major Federal decisions. NEPA 
ensures that Federal officials understand the consequences of their 
choices and the public and local governments are given a voice in the 
development of projects on Federal lands that affect their well-being 
and interests. Stifling that process will not result in smart solutions 
to the problem of flaring. Neither our public lands nor nearby 
communities should be faced with the risks that would come with more 
gathering lines and compressors constructed without well-informed 
environmental review.
   gathering lines and compressor stations currently have too little 
                 environmental oversight, not too much
    This is not the time to weaken environmental review of natural gas 
gathering lines or compressors. Gathering lines in areas defined as 
rural--with 10 or fewer homes within a quarter-mile of the pipeline in 
any mile-long stretch of pipe--are not regulated by the Pipeline and 
Hazardous Materials Safety Administration (PHMSA), and regulations for 
gathering lines in non-rural areas are much too weak. While 
historically gathering lines were smaller and thought to be less risky, 
many gathering lines today are as big as, or bigger than, many 
transmission lines and may operate at the same extremely high 
pressures. New gathering lines can be more than 24 inches in diameter 
and operate at pressures upwards of 1400 pounds per square inch, 
comparable to some transmission lines. And the regulatory definition of 
``gathering line'' \3\ is so broad that it can include large compressor 
stations used to pressurize the gas for long-distance transport.
---------------------------------------------------------------------------
    \3\ 49 CFR Sec. 192.8. See also: American Petroleum Institute, 
``Guidelines for the Definition of Onshore Gas Gathering Lines,'' API 
Recommended Practice 80, Published April 2000, Reaffirmed March 2007 
(incorporated by reference).
---------------------------------------------------------------------------
    In 2012, the Government Accountability Office (GAO) reported that 
there is not even basic information on where gathering lines are or 
whether any safety procedures are being observed. GAO concluded that 
``pipeline safety officials are unable to assess and manage safety 
risks'' from unregulated gathering lines.\4\ No regulation means that 
there are no requirements for pipe thickness, strength, welding, burial 
depth, inspections, corrosion resistance, installation practices, 
periodic maintenance to prevent and identify leaks and ruptures, or a 
record of the location. Without NEPA those issues will remained buried. 
While we lack any information concerning incidents on unregulated 
gathering lines or compressor stations in rural areas, GAO found that, 
in 2010, the average incident on a regulated gas gathering pipeline 
caused $1.8 million in property damage.
---------------------------------------------------------------------------
    \4\ U.S. Government Accountability Office, ``Pipeline Safety: 
Collecting Data and Sharing Information on federally Unregulated 
Gathering Pipelines Could Help Enhance Safety,'' GAO-12-388: Published: 
Mar 22, 2012.
---------------------------------------------------------------------------
    PHMSA has estimated that there are more than 200,000 miles of 
natural gas gathering lines in the country and an additional 30,000-
40,000 miles of hazardous liquid gathering lines that carry mostly 
petroleum products. PHMSA estimates that only about 10 percent of these 
lines are regulated. These lines are generally not included in programs 
that require the marking of utility lines to prevent them from being 
damaged by excavation or demolition work because there are no 
requirements to mark or keep records of the locations of gathering 
lines.
    Unfortunately, few States have chosen to add their own rules in the 
absence of Federal rules, so they do not regulate these facilities to 
ensure safety. For example, after a 2012 compressor station explosion 
in Pennsylvania, the Pennsylvania Department of Environmental 
Protection asked the operator not to restart the compressor without 
permission, but within 2 days the company had restarted the compressor 
against the agency's wishes.
  the national environmental policy act is crucial to ensure the best 
                                outcome
    The National Environmental Policy Act (NEPA) passed the House of 
Representatives by a vote of 372 to 15 and passed the Senate by voice 
vote with no recorded dissent during the Nixon administration. 
President Obama's Proclamation on NEPA's 40th anniversary noted NEPA's 
role in promoting ``. . . open, accountable, and responsible 
decisionmaking that involves the American public.''
    NEPA establishes a process to identify and consider the 
environmental impacts of a government proposal. NEPA requires the 
government to thoroughly consider the pros and cons for the human 
environment of proposed significant actions and to develop alternatives 
that reduce harms and increase benefits. NEPA does not dictate adoption 
of the least environmentally harmful alternative, but rather requires 
disclosure and consideration of alternatives that would reduce the 
harm. NEPA gives the public an opportunity to review and comment on any 
decisions. It is a tool that improves consensus, accountability and 
transparency surrounding government decisionmaking, and promotes buy-in 
by the public because it assures them an informed voice before final 
decisions are made.
    NEPA's process, helping to maximize the benefits of a project and 
minimize its health and environmental costs, is exactly what is needed 
for any important decisions regarding gathering lines or compressor 
units. Excluding projects from NEPA review or imposing arbitrary 
deadlines for issuing permits would shortcut the essential work needed 
to reduce risk, improve safety, and ensure all health and environmental 
threats are considered.
    H.R. 4293 would categorically exclude from NEPA sundry notices or 
rights-of-way for natural gas gathering lines or compression units that 
are located within an area for which NEPA review has already occurred 
and adjacent to an existing disturbed area. While a project located 
adjacent to an existing disturbed area, such as a road or wellpad, may 
seem like an innocuous location for a gathering line or compressor 
station, this approach does not take into consideration new or 
cumulative impacts of additional large-scale industrial development in 
an area. Potential impacts include threats to surface waters such as 
streams, ponds, and rivers, destruction of wildlife habitat, increased 
air pollution, severe noise, and potential impacts on historical and 
other important resources. Where those impacts have already been 
considered and vetted in a prior NEPA analysis, then under current law, 
new analysis is not needed and legislation is unnecessary. In addition, 
NEPA has built-in mechanisms by which projects with lesser impacts are 
subject to a less extensive review.
    Efforts to legislate categorical exclusions (CEs) from NEPA have 
historically proven to be an invitation to confusion and administrative 
abuses. For example, section 390 of The 2005 Energy Policy Act created 
CEs for oil and gas projects. A 2011 GAO report found that the Bureau 
of Land Management (BLM) had issued more than 6,000 oil and gas 
drilling exemptions from Fiscal Year 2006 through Fiscal Year 2008 and 
that the use of these exemptions ``often did not comply with either the 
law or BLM's guidance.'' GAO found ``several types of violations of the 
law.'' \5\ According to a more recent investigation by the Casper Star-
Tribune, the BLM's Casper office issued exemptions 111 times in 2013, 
and only conducted environmental review seven times. In the first 4 
months of 2014, the Casper office issued 53 exemptions and only 
conducted two environmental assessments.\6\ Without any environmental 
review, the public is left in the dark, decisionmakers cannot 
understand the consequences of their actions, and industry gets a free 
pass on making others bear the environmental costs of their operations. 
We are therefore opposed to legislative CEs which undermine the NEPA 
process, in particular CEs that favor one industry, such as energy.
---------------------------------------------------------------------------
    \5\ U.S. Government Accountability Office, ``Energy Policy Act of 
2005: BLM's Use of Section 390 Categorical Exclusions for Oil and Gas 
Development,'' GAO-11-941T: Published: Sep 9, 2011.
    \6\ Storrow, Benjamin, ``BLM revives controversial fast-tracking of 
oil and gas permits,'' Casper Star-Tribune, April 12, 2014.
---------------------------------------------------------------------------
    The Interior Department already has discretion under NEPA to 
establish administrative CEs where environmental review is genuinely 
unnecessary, and to take other action. For example, BLM is currently 
considering new rules to reduce waste, including flaring, under its 
current authorities. BLM has a duty under the law to minimize the waste 
of Federal oil and gas resources and can and should use the full scope 
of its current authority to do so.
                               conclusion
    Reducing flaring is a laudable goal. However, ignoring other 
environmental impacts to achieve this goal is short-sighted. NRDC 
therefore opposes H.R. 4293 and would be happy to work with the members 
of the subcommittee to develop the right solutions, including 
approaches to directly reduce flaring as well as reducing our 
dependence on fossil fuels and promoting energy efficiency and clean 
energy resources.

                                 ______
                                 

    Mr. Cramer. Thank you, Ms. Mall.
    Mr. Lund, you are now recognized for 5 minutes.

   STATEMENT OF NICHOLAS LUND, PROGRAM MANAGER OF  LANDSCAPE 
     CONSERVATION, NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Lund. Thank you. Good morning, Mr. Cramer, Ranking 
Member Holt, and members of the subcommittee. I am Nick Lund, 
Manager of the Landscape Conservation Campaign at the National 
Parks Conservation Association, or NPCA. Thank you for the 
opportunity to appear before you today to express NPCA's views 
on H.R. 1587 on behalf of NPCA's 800,000 members and supporters 
nationwide.
    National parks serve and protect America's most treasured 
landscapes, our history, and our culture, and are a vital 
resource to millions of Americans. The idea of parks owned by 
and maintained for all citizens was born in the United States, 
and the existence of these national parks, representing the 
crown jewels of the American landscape and the shared 
experiences of our past embodies our democratic ideals, and has 
been called the best idea we ever had.
    However, the success of the national park idea depends upon 
careful stewardship of their resources. These lands are set 
aside with a mandate that they remain unimpaired for future 
generations, and impairment, however incremental, should be 
permitted only as a last resort. In certain situations where 
potential impacts by commercial activities are minor, the 
National Park Service rightly has the authority to manage for 
and allow impacts that are acceptable. However, that 
discretionary authority does not apply, nor should it, in a 
case where use could cause impairment or an unacceptable 
impact.
    Where impairment to a national park is attended by a 
continued threat of contamination or pollution, such as the 
establishment of new oil and gas pipelines across park lands, 
the decision to allow such a use should be made by the park's 
owners, the public, through their representatives in Congress. 
The authors of the Mineral Leasing Act's 1973 pipeline 
provision understood this when they specifically excluded lands 
in the National Park System from those through which the 
Secretary of the Interior can grant rights-of-way for oil and 
gas pipelines.
    In fact, the 1973 provision passed the Senate with national 
parks, national wildlife refuges, and wilderness areas all 
being excluded from the Federal lands definition. After 
conference with the House of Representatives, only national 
park lands remained excluded, highlighting the fact that 
Congress specifically recognized the uniqueness and importance 
of national parks.
    Unlike other possible rights-of-way across national park 
lands, such as water pipelines or transmission lines, oil and 
gas pipelines carry the risk of leakage or contamination. The 
Wall Street Journal recently counted more than 1,400 pipeline 
accidents reported in the United States since 2010. More than 
80 percent of the pipeline leaks and ruptures are discovered 
not by industrial leak detection monitors, but by human beings, 
either pipeline employees or local residents.
    The risk of not detecting a leak is greater across national 
park lands that may be less frequently visited. And the impact 
of a large oil spill inside a park could be catastrophic. In 
these situations, the decision to permit such an incompatible 
use of a national park should be left to the public, their 
representatives, not the Administration in power.
    However, there are situations where running a pipeline 
across park lands is preferable to some other option. In those 
cases, dictated by specific facts, NPCA has supported such 
proposals. The Congressional Research Service has found at 
least nine recent examples of Federal legislation authorizing 
oil and gas pipelines to be constructed across park lands 
around the country. I would like to highlight some of those 
examples.
    In July of last year, NPCA supported provisions in the 
Denali National Park Improvement Act that would allow for a new 
oil and gas pipeline to be constructed along a highway corridor 
in Denali National Park. The routing of the pipeline through 
that area of the park is likely more environmentally friendly 
than any other alternative, and that bill is now law.
    In 2001, NPCA did not object to a pipeline proposal through 
Great Smoky Mountains National Park at the Gatlinburg Spur. The 
area, while technically part of the park, is not an area where 
the park's central resources or visitor experience would be 
diminished by incursion. The bill became law, and the pipeline 
was built.
    In 2012, NPCA supported the New York City Natural Gas 
Supply Enhancement Act, which included provisions allowing for 
the construction of a natural gas pipeline through Gateway 
National Recreation Area. Studies of the proposal have found 
that the impacts on the recreation area were minor and 
temporary, and the bill is now law.
    The point of these examples is to highlight that the 
process works, as currently established. The drafters of the 
Mineral Leasing Act understood that the Federal Government 
should only encourage private companies to seek easements 
across national park lands for oil and gas pipelines when all 
other options are exhausted. In the few cases where this last 
resort is reached, Congress has been willing and able to pass 
legislation allowing the exception.
    H.R. 1587 seeks to fix a system that isn't broken. The bill 
would, in its current state, increase the likelihood of injury 
and impairment to our national parks.
    Parks continue to occupy an important place in our Nation's 
hearts, with 95 percent of Americans viewing national parks as 
something that the Federal Government should be protecting and 
supporting. There are a number of reasons that the increase in 
domestic production of oil and natural gas can be viewed as 
beneficial to our Nation, but the Federal Government should not 
encourage the use of sensitive national park lands for oil and 
gas pipelines.
    The Mineral Leasing Act provides a logical and effective 
path for oil and gas pipeline easements as it is currently 
written.
    [The prepared statement of Mr. Lund follows:]
   Prepared Statement of Nick Lund, Landscape Conservation Campaign 
     Manager, National Parks Conservation Association on H.R. 1587
    Chairman Lamborn, Ranking Member Holt and members of the 
subcommittee, I am Nick Lund, Manager of the Landscape Conservation 
Campaign at the National Parks Conservation Association, or NPCA. NPCA 
is a nonpartisan, nonprofit advocacy organization that has been the 
leading independent voice in support of protecting and enhancing the 
National Park System since it was founded in 1919. Thank you for the 
opportunity to appear before you today to express our views on H.R. 
1587 on behalf of NPCA's 800,000 members and supporters nationwide.
    National parks conserve and protect America's most treasured 
landscapes, our history, and our culture and are a vital resource to 
millions of Americans. The idea of parks owned by and maintained for 
all citizens was born in the United States, and the existence of these 
national parks--representing the crown jewels of the American landscape 
and the shared experiences of our past--embody our democratic ideals 
and has been called ``the best idea we ever had.''
    The success of our national park system is undeniable. Our national 
parks protect our most incredible landscapes and most sacred places, 
from Denali to the Liberty Bell. The huge domestic and international 
interest in our national park system has created robust and stable 
economies in communities near national parks. More than 279 million 
people made recreational visits to national parks in 2011, spending 
more than $12.95 billion in local gateway regions.
    However, the success of the national park idea depends upon careful 
stewardship of their resources. These lands are set aside with a 
mandate that they remain unimpaired for future generations, and 
impairment, however incremental, should be permitted only as a last 
resort. In certain situations, where potential impacts by commercial 
activities are minor, the National Park Service rightly has the 
authority to manage for and allow impacts that are acceptable. However, 
that discretionary authority does not apply, nor should it, in case 
where a use could cause impairment or an unacceptable impact.
    Where impairment to a national park is attended by a continued 
threat of contamination or pollution, such as the establishment of new 
oil and gas pipelines across park lands, the decision to allow such a 
use should be made by the parks' owners, the public, through their 
elected representatives in Congress. The authors of the Minerals 
Leasing Act's 1973 pipeline provision understood this when they 
specifically excluded lands in the National Park System from those 
through which the Secretary of the Interior can grant rights-of-way for 
oil and gas pipelines. In fact, the 1973 provision passed the Senate 
with national parks, national wildlife refuges, and wilderness areas 
all being excluded from the ``Federal lands'' definition. After 
conference with the House of Representatives, only national park lands 
remained excluded, highlighting the fact that Congress specifically 
recognized the uniqueness and importance of national parks.
    Unlike other possible rights-of-way across national parks lands, 
such as water pipelines or transmission lines, oil and gas pipelines 
carry the risk of leakage or contamination. The Wall Street Journal 
recently counted more than 1,400 pipeline accidents reported in the 
United States since 2010. More than 80 percent of pipeline leaks and 
ruptures are discovered not by industrial leak-detection monitors but 
by human beings--either pipeline employees or local residents.\1\ The 
risk of not detecting a leak is greater across national park lands that 
might be less frequently visited, and the impact of a large oil spill 
inside a park could be catastrophic. In these situations, the decision 
to permit such an incompatible use of national park lands should be 
left to the public, through their representatives, not the 
administration in power.
---------------------------------------------------------------------------
    \1\ Sider, A. (2014, January 20) High-Tech Monitors Often Miss Oil 
Pipeline Leaks. The Wall Street Journal. Online at: http://
online.wsj.com/news/articles/
SB10001424052702303754404579310920956322040.
---------------------------------------------------------------------------
    However, there are situations where running a pipeline across park 
lands is preferable to some other option, and in those cases, dictated 
by specific facts, NPCA has supported such proposals. The Congressional 
Research Service has found at least nine recent examples of Federal 
legislation authorizing oil and gas pipelines to be constructed across 
national park lands across the country.
    I'd like to highlight some of those examples. In July of last year, 
NPCA supported provisions in the Denali National Park Improvement Act 
that would allow for a new oil and gas pipeline to be constructed on a 
highway corridor in Denali National Park. The routing of the pipeline 
through that area of the park is likely more environmentally friendly 
than any other alternative. That bill is now law, and the pipeline will 
be constructed pending completion of the NEPA process.
    In 2001, NPCA did not object to a pipeline proposal through Great 
Smoky Mountains National Park, at the Gatlinburg Spur. The area, while 
technically part of the park, is not an area where the park's central 
resources or visitor experience would be diminished by incursion. The 
bill became law, and the pipeline was built.
    In 2012, NPCA supported the New York City Natural Gas Supply 
Enhancement Act, which included provisions allowing for the 
construction of a natural gas pipeline through Gateway National 
Recreation Area. Studies of the proposal have found that impacts on the 
recreation area would be minor and temporary, and the bill is now law.
    The point of these examples is to highlight that the process works 
as currently established. The drafters of the Mineral Leasing Act 
understood that the Federal Government should only encourage private 
companies to seek easements across national park lands for oil and gas 
pipelines when all other options are exhausted. In the few cases where 
this ``last resort'' is reached, Congress has been willing and able to 
pass legislation allowing the exception. H.R. 1587 seeks to fix a 
system that isn't broken. The bill would, in its current state, 
increase the likelihood of injury and impairment to our national parks.
    Parks continue to occupy an important place in the Nation's hearts, 
with 95 percent of Americans viewing national parks as something that 
the Federal Government should be protecting and supporting. There are a 
number of reasons that the increase in domestic production of oil and 
natural gas can be viewed as beneficial to our Nation, but the Federal 
Government should not encourage the use of sensitive national parks 
lands for oil and gas pipelines. The Mineral Leasing Act provides a 
logical and effective path for oil and gas pipeline easements as it is 
currently written.
    I would be happy to answer any questions members of the 
subcommittee might have.

                                 ______
                                 

    Mr. Cramer. Thank you, Mr. Lund, for your testimony.
    Now, Mr. Nedd, you are recognized for 5 minutes.

  STATEMENT OF MICHAEL NEDD, ASSISTANT DIRECTOR, MINERALS AND 
 REALTY MANAGEMENT, BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT 
    OF THE INTERIOR, ACCOMPANIED BY HERBERT FROST, REGIONAL 
DIRECTOR, ALASKA REGION, NATIONAL PARK SERVICE, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Nedd. Mr. Chairman, Ranking Members, and members of the 
committee, thank you for the opportunity to present the views 
of the Department of the Interior on two bills pertaining to 
the development of oil and gas pipeline infrastructure on 
Federal lands. With me today to answer any questions 
specifically related to National Park Service is Dr. Herbert 
Frost, Regional Director for the Alaska Region of the National 
Park Service.
    The Department of the Interior administers a wide range of 
lands and resources that includes wilderness areas, land held 
in trust for Native Americans, our national park system, our 
national wildlife refuge system, and the national system of 
public land. The Bureau of Land Management administers over 245 
million surface acres on approximately 700 million acres of 
onshore subsurface mineral estate.
    Together with the Bureau of Indian Affairs, the BLM also 
conducts energy permitting on approximately 56 million acres of 
land held in trust by the Federal Government on behalf of 
tribes and individual Indian owners. The Department of the 
Interior has made it a priority to ensure a clean energy future 
to environmentally responsible development of renewable and 
conventional energy on Federal and Indian lands.
    Oil and gas transmission is a critical component of these 
energy efforts, and the BLM plays a key role by issuing rights-
of-way grants for oil and natural gas gathering, distribution, 
transmission, pipelines, and related facility. Notably, the BLM 
oil and gas pilot offices authority, that has been expanded to 
include our Dickinson office in North Dakota, are particularly 
effective for permitting these pipelines.
    Since 2009, the BLM has participated in the approval of 
seven major oil and gas projects, totaling nearly 1,750 miles, 
with nearly 750 of those miles crossing Federal lands. In the 
next 18 months, the BLM is expected to complete review and 
disposition of three more major pipeline projects, totaling 
nearly 500 additional miles, with nearly 250 of those miles 
crossing Federal land. This work is in addition to the 
thousands of miles of smaller pipeline projects that are 
approved every year to transport oil and gas from the 
production site to the larger gathering pipelines and the major 
transport pipeline facilities.
    The activities called for in H.R. 4293, the Natural Gas 
Gathering Enhancement Act, are already within the scope of 
existing Department authorities, and consistent with our 
priorities and activities already underway. The Department 
strongly opposes the categorical exclusion from NEPA of 
pipelines activity, as proposed in H.R. 4293. The engagement of 
the public through the environmental review process under NEPA 
is a crucial component of the BLM's multiple use management of 
the public lands. H.R. 4293 would prohibit the BLM from 
engaging in this important public participation and 
environmental analysis process, and prohibit the BLM from 
engaging in site-specific NEPA analysis, if needed, for 
particular natural gas pipelines.
    The Department strongly opposes the provision of H.R. 1587, 
the Energy Infrastructure Improvement Act, which would 
authorize the Secretary to issue a permit for oil and gas 
pipelines on National Park Service lands, reversing the long-
standing prohibition on allowing such pipeline in our Nation's 
national parks, unless explicitly authorized by Congress. The 
disturbance associated with the laying of pipelines, as well as 
the transportation of oil and gas products via pipeline is 
inconsistent with the conservation mandate in the National Park 
Service Organic Act, and would overturn long-standing and 
necessary protection of park system resources and value.
    The Department also opposes H.R. 1587 because it contains 
provisions which are redundant or conflict with existing BLM 
authority under the Mineral Leasing Act to grant right-of-ways 
for pipelines through Federal land. These new provisions would 
raise confusion for land management agencies, applicants, and 
public regarding what authority should be followed, what 
requirement must be met, and what new regulation would be 
required. The Department continues to work hard to increase the 
capacity to transport energy resources, where appropriate, 
across Federal lands, and has been successfully coordinating 
with our State and tribal partners.
    Thank you for the opportunity to present testimony on H.R. 
4293 and H.R. 1587.
    [The prepared statement of Mr. Nedd follows:]
Prepared Statement of Michael D. Nedd, Assistant Director, Minerals and 
 Realty Management, Bureau of Land Management, U.S. Department of the 
                  Interior on H.R. 4293 and H.R. 1587
    Thank you for the opportunity to testify on behalf of the 
Department of the Interior (Department) on H.R. 4293 and H.R. 1587. 
H.R. 4293 would categorically exclude from environmental review under 
the National Environmental Policy Act (NEPA) the permitting of natural 
gas gathering lines, and would establish deadlines for such 
authorizations on Federal and Indian lands. The Department strongly 
opposes H.R. 4293, which would prohibit the BLM from engaging in 
valuable public participation and analysis under NEPA. The NEPA process 
is invaluable to sound public land management, providing a formal 
opportunity for public engagement, consideration of environmental 
impacts, and identification of unknown or unforeseen issues. Both the 
Department of Interior and the Department of Agriculture have 
capabilities to effectively and efficiently evaluate and process 
pipeline applications including the use of categorical exclusions where 
relevant criteria apply. Both Departments also appreciate the need to 
capture natural gas and are actively seeking means to be responsive 
while protecting public lands.
    The Department also opposes H.R. 1587 which contains provisions 
which are redundant or conflict with existing Mineral Leasing Act (MLA) 
authority regarding granting pipeline rights-of-way (ROW) through 
Federal lands, and strongly opposes the bill's provisions that would 
authorize the Secretary to issue a permit for oil and gas pipelines on 
Department-administered lands, which would now include National Park 
Service (NPS) lands.
Background
    The Department of the Interior administers a wide range of lands 
and resources that includes wilderness areas, lands held in trust for 
Native Americans, our National Park System, our National Wildlife 
Refuge System, and our National System of Public Lands. The Bureau of 
Land Management (BLM) is responsible for protecting the resources and 
managing the uses of our Nation's public lands, which are located 
primarily in 12 western States, including Alaska. The BLM administers 
over 245 million surface acres and approximately 700 million acres of 
onshore subsurface mineral estate throughout the Nation. The BLM, 
together with the Bureau of Indian Affairs (BIA), also provides 
permitting and oversight services under the Indian Mineral Leasing Act 
of 1938 on approximately 56 million acres of land held in trust by the 
Federal Government on behalf of tribes and individual Indian owners.
    The BLM plays an important role in ensuring safe and effective 
management of mineral resources on Federal and Indian lands. The BLM 
works closely with surface management agencies, including the BIA and 
tribal governments, in the management of the subsurface mineral estate. 
While the BLM cooperates with its Federal partners to provide 
consistent and responsible oil and gas management, the BLM alone is 
delegated the responsibility of managing public and Indian Trust 
minerals.
    The Mineral Leasing Act of 1920 establishes the statutory framework 
to promote the exploration and development of oil and natural gas from 
the Federal onshore mineral estate. Secretary of the Interior Sally 
Jewell has emphasized that, as the Nation moves toward the new energy 
frontier, the development of conventional energy resources from BLM-
managed public lands will continue to play a critical role in meeting 
the Nation's energy needs. Facilitating the safe, responsible, and 
efficient development of these domestic oil and gas resources is one of 
the BLM's many responsibilities and part of the administration's broad 
energy strategy, outlined in the President's Blueprint for a Secure 
Energy Future. Environmentally responsible development of these 
resources will help protect consumers and reduce our Nation's reliance 
on oil imports, while protecting our Federal lands and the environment. 
As part of this effort, the Department is working with various agencies 
in support of Executive Order 13604 to improve the performance of 
Federal permitting and review of infrastructure projects by increasing 
transparency, predictability, accountability, and continuous 
improvement of routine infrastructure permitting and reviews.
    Oil production from Federal onshore lands is at its highest level 
in over a decade, with onshore production about 35 percent above 2008 
levels according to the most current available data. The amount of 
producing Federal acreage continues to increase, and grew by over 
300,000 acres from 2011 to 2013. The total number of well bores on 
Federal lands has increased by over 3,400 wells during this same period 
to nearly 94,000 total wells.
    Well-paying jobs are often associated with oil and gas exploration 
and development, and provide crucial revenues and economic activity in 
many communities. Royalties from onshore public land oil and gas 
development were nearly $3 billion in Fiscal Year 2013. Approximately 
half of that total ($1.4 billion) was paid directly to the States in 
which the development occurred and is used to fund important State 
priorities. Over $930 million in mineral revenues was disbursed to 
American Indian tribes from production on Indian lands--an increase of 
more than $200 million over Fiscal Year 2012 disbursements.
    Fundamental to all of the BLM's management actions--including 
authorization of oil and gas exploration and development--is the 
agency's land use planning and NEPA processes. These open, public 
processes are the vehicle by which proposals for managing particular 
resources are made known to the public in advance of taking action. The 
BLM is committed to providing the environmental review and public 
involvement opportunities required by NEPA for proposals to use BLM-
managed lands. In addition, as required under the Federal Land Policy 
and Management Act (FLPMA), the BLM strives to achieve a balance 
between oil and gas production and development of other natural 
resources and protection of the environment and cultural resources. The 
land-use planning and NEPA processes are vital tools used to achieve 
this statutory mandate.
Oil & Gas Pipelines
    As authorized by the Mineral Leasing Act (MLA, Section 28), the BLM 
issues ROW grants for oil and natural gas gathering, distribution, and 
transmission pipelines and related facilities. The BLM may grant MLA 
ROWs on any public land, or on land administered by two or more Federal 
agencies, except land in the National Park System or land held in trust 
for Indian tribes. Oil and gas production is now outpacing pipeline 
capacity and creating bottlenecks in some locations, putting a strain 
on America's pipeline infrastructure.
    Since 2009, the BLM has participated in the approval of seven major 
pipeline expansion projects totaling nearly 1,750 miles of new oil and 
gas pipeline with nearly 750 of those miles crossing Federal lands. In 
the next 18 months, the BLM is expected to complete review and 
disposition of three more major pipeline projects totaling nearly 500 
hundred additional miles with nearly 250 of those miles across Federal 
lands. Work on these major oil and gas pipeline projects is in addition 
to the thousands of miles of smaller pipeline projects that are 
approved every year to transport oil and gas from the production site 
to the larger gathering pipelines and the major transport pipeline 
facilities.
H.R. 4293, ``Natural Gas Gathering Enhancement Act''
    H.R. 4293 amends several laws to provide additional authority for 
the Secretary of the Interior to approve natural gas pipelines and 
gathering lines on Federal and Indian land. Section 4 of the bill 
amends the Energy Policy Act of 2005 and adds a new provision (section 
319) to categorically exclude from NEPA review certain gas gathering 
lines and associated field compression units. Under the bill, such 
lines would be categorically excluded from NEPA review if they are 
within an area that has a land use plan or environmental document that 
analyzed transportation of natural gas produced from oil wells as a 
reasonably foreseeable activity and also are located adjacent to an 
existing disturbed area for the construction of a road or oil and gas 
pad. The bill's categorical exclusion (CX) is applicable to BLM-managed 
lands and other Federal lands with two exceptions: (1) if the Governor 
in which the lands are located requests that the CX not be applied; and 
(2) if an Indian tribe requests the CX be applied on tribal lands.
    Section 4 of the bill further amends the Energy Policy Act of 2005 
and adds a new provision to require the Secretary to conduct a study to 
identify any actions that may be taken under Federal law or regulation, 
or changes to Federal law or regulation, to expedite permitting for gas 
gathering lines and associated field compression units that are located 
on Federal land or Indian land. This section requires the Secretary to 
prepare a report to Congress every 180 days on the progress made in 
expediting permits for gas gathering lines and associated field 
compression units that are located on Federal or Indian land and on any 
issues impeding that progress.
    Finally, Section 5 of H.R. 4293 amends the MLA to require the 
Secretary to issue a sundry notice or ROW for a gas gathering line and 
associated field compression unit not later than 30 days after 
receiving the request from the pipeline proponent if the request meets 
the criteria in section 4 of the bill, and not later than 60 days after 
receiving the request if it does not meet the section 4 criteria. The 
bill (section 6) also amends FLPMA to require the same approval 
timeframes.
Analysis
    The Department strongly opposes the categorical exclusion from NEPA 
review of pipeline activities as proposed in H.R. 4293. The engagement 
of the public through the environmental review process under NEPA is a 
crucial component of the BLM's multiple-use management of the public 
lands and for the consideration and mitigation of impacts to adjacent 
resources and lands. These open, public processes facilitate the 
consideration of impacts to the affected environment and identify 
unknown or unforeseen issues, which is invaluable to sound public land 
management. The BLM is committed to providing the environmental review 
and public involvement opportunities required by NEPA for proposals for 
the use of BLM-managed lands. H.R. 4293 would prohibit the BLM from 
engaging in this important public participation and environmental 
analysis process, in addition to prohibiting the BLM from engaging in 
site-specific NEPA analysis if needed for particular natural gas 
pipelines.
    The activities called for in H.R. 4293 are already within the scope 
of existing Department authorities and consistent with our priorities 
and activities already underway. For example, for an area that has a 
land use plan or environmental document for transportation of natural 
gas as a reasonably foreseeable activity, the BLM could use its 
existing authorities to authorize the activity following a 
determination that the existing NEPA is adequate, provided the 
necessary site-specific analysis and the environmental document found 
the action would not cause a significant impact to other resources.
    The Department also strongly opposes the bill's provisions in 
section (4) that would allow each State Governor to decide the 
appropriate level of NEPA analysis to be done by the BLM for pipeline 
projects on Federal lands within that State. In addition to the 
practical problems that this raises with pipelines that may cross State 
jurisdictional lines, giving State Governors the authority to determine 
planning activities on Federal lands would limit the BLM's ability to 
comply with its obligations under Federal law. The bill contains a 
related provision which applies to tribal land and the Department has 
concerns that the provision may conflict with the agency's legal 
responsibility for consultation, stewardship and oversight service 
under the Indian Mineral Leasing Act of 1938.
    The Department also has concerns about the requirement to conduct a 
study to identify proposed changes to Federal law or regulations and to 
report every 180 days on progress to expedite permitting for gas 
gathering lines and associated field compression units that are located 
on Federal land or Indian land and impediments to that progress. If 
enacted, these requirements would divert limited BLM resources from oil 
and gas permitting, inspection and enforcement activities and result in 
the further delay of environmentally responsible development of 
pipeline infrastructure.
    Sections 5 and 6 of H.R. 4293, which require the Secretary to issue 
a sundry notice or ROW not later than 30 or 60 days after receiving the 
request from the project proponent, are also very concerning. The 
provision does not contain any requirement for the proponent's request 
to be fully complete prior to submission. This provision removes 
discretion from the Secretary to authorize the sundry notice or ROW. 
Furthermore, categorical exclusions still require consideration of 
extraordinary circumstances before they can be applied, even if NEPA 
analysis is not required, and this consideration may be challenging to 
complete within the 30- or 60-day timeframes.
    Finally, the Department opposes the provision in section 6 amending 
section 504 of FLPMA. This provision would allow the Secretary to 
authorize gas gathering lines via the authority of Title V of FLPMA, 
which sets out the requirements for many other types of ROWs. However, 
section 501(a)(2) of FLPMA prohibits the Secretary from using the Title 
V authority to authorize oil and gas pipelines, instead deferring to 
the MLA. The proposed amendment to section 504 of FLPMA would give 
contradictory direction to the BLM. In addition, it should be noted 
that under the MLA, 50 percent of the receipts from annual rents for 
oil and gas pipelines ROWs are provided to State governments in which 
the pipeline is located, in contrast to the treatment of receipts from 
FLPMA ROWs, none of which are provided to State governments.
H.R. 1587, ``Energy Infrastructure Improvement Act''
    H.R. 1587 provides new direction for the Department in granting 
ROWs through Federal lands for petroleum pipeline purposes--separate 
and apart from the existing authorization provided in the Mineral 
Leasing Act. The bill authorizes the Secretary of the Interior and the 
Secretary of Agriculture to issue permits for ROWs, temporary 
easements, or other necessary authorizations to facilitate natural gas, 
oil and petroleum product pipelines and related facilities on eligible 
Federal lands--including lands managed by the NPS.
    The bill requires the Secretary to include terms and conditions for 
the ROW and states modifications to these terms and conditions must be 
agreed to by the permittee. Under the bill, the Secretary could recover 
costs of processing, issuing, and monitoring the permit and an annual 
rental fee of the fair market value of the use. The bill also 
authorizes the Secretary to determine the initial term for a ROW permit 
based on costs incurred, useful life of the pipeline and the public and 
economic purposes served and requires the Secretary to renew the ROW 
provided the project is in commercial operation and is operated and 
maintained in accordance with the terms and conditions. Finally, the 
bill provides authority for the Secretary to impose citations, fines, 
or revoke a permit for failure to comply with any terms and conditions 
of the permit and also provides that a permittee may file suit to 
challenge a final decision in the United States Court of Appeals.
Analysis
    The Department strongly opposes H.R. 1587's provisions that would 
authorize the Secretary to issue a permit for oil and gas pipelines on 
NPS lands--reversing the longstanding prohibition on allowing such 
pipelines in our Nation's national parks unless explicitly authorized 
by Congress. In its 1973 amendments to the MLA, Congress determined 
that such lands would not be part of the general ROW provisions. This 
specific exemption in the MLA protects the integrity, resources, and 
values of the National Park System. The significant infrastructure 
associated with the clearing, grading, trenching, stringing, welding, 
coating and laying of pipeline as well as the transportation of oil and 
gas products via pipeline, which carries the risk of oil spillage and 
gas explosions, is inconsistent with the conservation mandate set forth 
in the NPS Organic Act. H.R. 1587 would overturn longstanding and 
necessary protection of park system resources and values, visitor 
experience, and human health and safety and would undermine the very 
purpose for which National Park System units were created.
    The Department is also concerned that H.R. 1587's provisions could 
be interpreted to authorize the Secretary to issue a permit for oil and 
gas pipelines on lands that are a component of the National Wilderness 
Preservation System, a concept the Department strongly opposes.
    The Department also opposes H.R. 1587 because it contains 
provisions granting ROWs through Federal lands for pipeline purposes 
which are redundant or conflict with existing BLM authority under the 
MLA. These new provisions would raise confusion for land management 
agencies, applicants, and the public regarding which authority should 
be followed, which ``sideboards'' apply, what requirements must be met 
and what new regulations would be required. For example, the bill 
authorizes the Department to issue permits for pipeline ROWs, but 
remains silent on the width of any ROW that a permit might affect and 
does not provide a fixed term for the ROW as provided for under the 
MLA. In contrast, the MLA identifies a 50 foot maximum ROW and an 
initial term of no more than 30 years. The bill also fails to identify 
where an annual rental fee would be deposited. Also of concern are the 
bill's provisions that require mandatory renewal of the ROW and that 
allow modifications to the permit only if they are agreed upon by the 
permittee. The Department believes that the bill's new authority to 
issue citations or impose fines would be better suited for inclusion in 
the MLA.
    Finally, H.R. 1587 omits a number of important procedural and 
substantive safeguards Congress previously required with the issuance 
of ROWs, including: a right of public notice and comment; bonding 
requirements; pipeline safety and environmental protection provisions; 
technical and financial capability requirements; disclosure regarding 
entity ownership; and width limitations.
Conclusion
    The Department has been successful and continues working hard to 
increase the capacity to transport energy resources where appropriate 
across Federal lands and in coordination with our State and tribal 
partners. The BLM plays an active role in providing suitable lands to 
modernize the Nation's pipeline infrastructure in an environmentally 
responsible way to efficiently distribute the Nation's energy 
resources. Thank you for the opportunity to present testimony on H.R. 
4293 and H.R. 1587.

                                 ______
                                 

    Mr. Cramer. Thank you, Mr. Nedd, and thank all of you for 
your statements. We will now begin questioning. Members, as you 
were reminded, are limited to 5 minutes for their questions, 
but we may have additional rounds if there are more questions 
after the first round. And I now recognize myself for 5 
minutes.
    And I want to pursue, Mr. Nedd, with you the line of your 
testimony because you state that my bill eliminates the NEPA 
requirements, and thus, the NEPA process. But isn't the use of 
categorical exclusions, as you have testified to, already part 
of the NEPA process? And, if so, can you tell me areas where 
the Administration does, in fact, use categorical exclusions to 
get around the NEPA process?
    Mr. Nedd. Congressman, again, the Department recognizes the 
importance of public involvement. And categorical exclusion, 
the administrative categorical exclusion may be used within a 
right-of-way where site-specific NEPA has already been 
performed.
    Mr. Cramer. But when developing a land use, don't you 
assume or prepare or go through the NEPA, where you have 
already had public engagement of the plan, don't you assume the 
possibility of things like a gathering line might be an 
important part of other oil and gas activity on that same land? 
And so doesn't the public have its opportunity?
    Mr. Nedd. Congressman, in a land use plan it is done for a 
higher level for allocation, resource allocation. That land use 
plan may contemplate transportation of oil or gas, but does not 
engage in a site-specific NEPA to understand the impacts on the 
ground on that site to any conservation values.
    Mr. Cramer. So doesn't it make sense, though, that we 
would, in that process, then, at least consolidate the NEPA 
process? In other words, I am looking for a solution that 
doesn't shortcut public participation and involvement, but 
rather, consolidates it. So we can do it more efficiently, 
without jeopardizing the environment. Can't we do that in that 
process?
    Mr. Nedd. I believe, Congressman, the Department already 
has a process that would allow site-specific NEPA at a time an 
APD or any type of right-of-way is contemplated. And so, during 
that process, it would allow a site-specific and then a right-
of-way within that right-of-way, that has already been 
analyzed, would be appropriate with the appropriate DNA, or 
something to that effect.
    So, again, looking for the site-specific while in the land 
use plan is more the resource allocation level.
    Mr. Cramer. Let me ask you this. Didn't the Department use 
categorical exclusion to expand the permitting for wind 
projects to kill birds from 5 years to 30 years without public 
comment, and without the NEPA public participation process? And 
now the Department believes a single decision to approve, say, 
2 miles of gathering line in North Dakota for gas in a right-
of-way that already exists requires years more environmental 
oversight than allowing a 30-year exclusion for killing birds 
with wind farms? I mean doesn't that seem inconsistent?
    Mr. Nedd. Congressman, I am not familiar with the reference 
to wind and the killing of birds, so I cannot comment on that.
    Mr. Cramer. All right. Let me say to you, as well, as not 
only a Member from North Dakota, but having served 10 years as 
an environmental regulator in the oil and gas and coal and the 
energy industry as a public service commissioner in North 
Dakota, your employees, along with the U.S. Department of 
Agriculture employees out in the Forest Service really are some 
of the hardest working people I know. They do an incredible job 
with the resources they have. I get the sense sometimes, 
though, that they don't have the full support back here that 
they ought to have.
    We have, as you know, tried to provide and have 
successfully provided you all some latitude in compensating 
them properly, given the fact that the rent in the Bakken is 
higher than Manhattan, and the standard of living is equal to 
many different places. We are trying to help them and help you 
keep people. But what I am trying to do with this bill, and I 
think what both bills try to do, is not shortcut anything, and 
try to reduce that workload in a way that is responsible for 
the environment.
    Now, you have testified, I think, in your testimony that 
the government has a problem, or the Administration has a 
problem with the 3 months, every 3 months of responding or 
reporting. Is there some way that you can see in this that we 
can work together to ease that a little bit, and maybe report 
every 6 months, 1 year, every other year? Is there some 
compromise we can find here that we can get the support of the 
Administration to consolidating this process, so that we can 
stop flaring this gas?
    Because, as Ms. Mall testified, this gas is not only a 
waste product, it is also a pollutant, it is an emission of CO2 
gases without any value added to it. Do you see any room for 
compromise here?
    Mr. Nedd. Congressman, I agree with you, BLM employees are 
certainly some of the hardest working employees I have known. 
And spending time in Montana myself a few years ago, I can 
attest to that.
    And, you know, Congressman, we are always open for looking 
for ways to allow our employees to get the resources. But the 
Administration clearly wants to make certain the NEPA process 
allows public participation and be able to look at those site-
specific impacts. So, Congressman, again, I believe finding 
ways to increase resources is a good thing, and finding ways to 
make certain we continue to have public involvement is a great 
way, and the Administration, I presume, would want to talk on 
that level.
    Mr. Cramer. All right. Thank you very much. My time has 
expired. I recognize the Ranking Member, Mr. Holt.
    Dr. Holt. Thank you. Mr. Nedd, if I may continue with you, 
is there any evidence that the NEPA review for gas gathering 
pipelines has been a significant contributor to excessive 
flaring, a contributor to that flaring?
    Mr. Nedd. No, Congressman, there has been no evidence I am 
aware of.
    Dr. Holt. And do you have any evidence what is causing the 
flaring?
    Mr. Nedd. You know, Congressman, around the Nation 
certainly, but if I may go to North Dakota, where it seems to 
be one of the hot spots, it is a relatively new play, the 
Bakken. The infrastructure is not fully developed. And, frankly 
speaking, as operators look at how best to make their decision, 
they sometimes find that it is easier to flare than it is to go 
through the process of getting the gathering line.
    Dr. Holt. How long does it typically take for the BLM to do 
a required environmental review for a gas gathering pipeline? 
Do you have a typical time or a median time?
    Mr. Nedd. Yes, Congressman. Less than 3 months. We have 
looked across a range and it is less than 3 months.
    Dr. Holt. Less than 3 months. OK.
    Now, let me try to get this in perspective, too. Oil and 
gas production on Federal lands in North Dakota has gone up 
significantly in the last 4 or 5 years. According to the Office 
of Natural Resources Revenue, since 2009 Federal land gas 
production is up 33 percent. And Federal land oil production 
has gone up 85 percent.
    But I would like to get this in perspective. The Federal 
production is still a very small fraction of the total in North 
Dakota, less than 5 percent of the oil. So why is that fraction 
so small on Federal lands in North Dakota?
    Mr. Nedd. You know, Congressman, the majority of the 
development in that Bakken area is in either private or State 
and some tribal----
    Dr. Holt. But the Federal lands are a small fraction of----
    Mr. Nedd. Very small fraction.
    Dr. Holt. Is the flaring in North Dakota just a problem on 
Federal lands, or is it also occurring on private lands?
    Mr. Nedd. It is occurring on private lands, absolutely.
    Dr. Holt. In fact, it appears, according to the data that I 
have here, that the rate of flaring is higher on private lands 
than it is on Federal lands, and the Federal lands are a very 
small fraction of the total land.
    Ms. Mall, most people think about flaring in the Bakken in 
North Dakota. Are there other areas where flaring is a serious 
problem, other areas of the country?
    Ms. Mall. Yes, definitely. In particular, there have been a 
lot of reports lately of flaring in Texas, in what is called 
the Eagleford Shale Area.
    Dr. Holt. And is that Federal land?
    Ms. Mall. There is not Federal land there, that is private 
land.
    Dr. Holt. I see. Let me also ask you, Ms. Mall, in your 
testimony you said that flaring is an environmental problem, 
but there are other environmental problems to balance that must 
also be considered. What is the appropriate forum for balancing 
those various kinds of environmental risk?
    Ms. Mall. NEPA, the National Environmental Policy Act, sets 
out a process that is tried and true over many years for 
developing the best projects possible, including a large 
priority for public input, as Mr. Nedd referenced, and 
independent experts, such as scientists. Generally, with the 
public input, the agency can then consider what are the 
different alternatives to accomplish a goal, what alternative 
will offer the greatest benefits and the least harms.
    Now, the agency doesn't have to select that alternative. 
But they have to consider----
    Dr. Holt. But the procedure shouldn't be bypassed is what 
you are saying.
    Ms. Mall. It should not be, no. This is an essential way to 
develop this project----
    Dr. Holt. I have only a moment left, or less than a minute. 
Let me turn to Mr. Lund--excuse me for interrupting you.
    But, Mr. Lund, in Mr. Santa's testimony he said that the 
process in the national parks is really an oversight, that the 
way it used to be is the way it should be. But is it not true 
that in 1973 Congress deliberately amended Section 28 of the 
Mineral Leasing Act, specifically excluding national parks?
    Mr. Lund. Yes, it is true.
    Dr. Holt. So this is not an oversight that needs to be 
corrected, do you think?
    Mr. Lund. No. This was considered in both the Senate and 
the House, and conferenced out, and national park lands were 
left as the one needing legislation.
    Dr. Holt. Well, thank you. I wish we had more time. I 
appreciate your comments.
    Mr. Santa. May I respond, Mr. Holt?
    Dr. Holt. One witness wanted to say something.
    Mr. Cramer. Oh, sure, continue. We've got a little time.
    Dr. Holt. Yes, Mr. Santa.
    Mr. Santa. Oh, Mr. Holt, thank you.
    Dr. Holt. Yes.
    Mr. Santa. I would note that in the 1970s the Department of 
the Interior still interpreted the law to imply that it had the 
authority to authorize natural gas pipelines on National Park 
Service land, but it did not change that interpretation until 
the mid to late 1980s. So I would question whether an 
interpretation of the 1973 action by Congress to explicitly 
exclude that authority from National Park Service----
    Dr. Holt. Well, it may----
    Mr. Santa [continuing]. Some question on that.
    Dr. Holt. It may be that the Park Service wasn't clear on 
it, but Congress was. I think it is well recorded that this was 
a deliberate exclusion. That is the way it was intended. And 
the Park Service came to understand that.
    Mr. Cramer. Thank you. We may have time for a second round 
of questioning. We could pursue this further. At this time I 
would recognize Mr. Mullin.
    Mr. Mullin. Thank you, sir, and thank you for allowing me 
to bring my son in with me. There are never enough 
opportunities to have your kids with you.
    Mr. Cramer. Just so you know, Mr. Mullin, you don't get 
another 5 minutes because he is with you.
    [Laughter.]
    Mr. Mullin. Oh, he doesn't get another 5 minutes? Well, 
maybe he could probably do a better job than I could.
    Either way, I appreciate the panel for being here. And I 
just have a few questions that I kind of want to get through. 
Being from Oklahoma, obviously we are a State that is very well 
known for natural resources. And it is vitally important to our 
economy.
    And, Mr. Nedd, I have heard you sit up here and you took a 
lot of credit for what this Administration supposedly has done 
since they have been in office. But I find it quite interesting 
that a lot of the stuff they are bragging about is stuff that 
has been done on the private land, not Federal land. But you 
guys are quick to take credit for it. In fact, if we start 
looking at the development of what has happened on private land 
versus Federal land, it is astonishing.
    I am Cherokee, and we have a lot of land, obviously, in 
Oklahoma that is owned by our nations. And you brought up that 
BLM has quite a bit of land, and with different tribes across 
there, and you started to talk just a second about the 
improvements that you guys have made on Indian territory. And I 
am kind of curious what you are meaning by that, because I hear 
from the tribes all the time, and we have so many natural 
resources underneath our feet, but yet we are always having to 
turn around and ask you guys for permission. If we were treated 
like private land, we would be so much farther along than we 
are today. But our biggest hindrance we have is your 
Department.
    So, how is it that you are sitting there just a second ago 
during your testimony, that you were referring to taking credit 
for something that we have been asking for? I will let you 
respond to that.
    Mr. Nedd. Well, Congressman, the BLM, certainly through the 
Secretary, works on tribal land for the authorizing of 
minerals. And the BLM works hand in hand to ensure, whether it 
is through BIA leases are issued, or whether it is through the 
permitting of oil and gas. And so, Congressman, I will stand by 
that, that the BLM works with those agencies to permit those 
activities----
    Mr. Mullin. Works with or is a hindrance? Because if we 
were treated like private land, we could get it a lot farther 
and a lot faster. I mean it is private land, it is our land, 
but yet we are asking you for permission. ``Working with,'' you 
make it sound like you are trying to help us out. You are not. 
You are our biggest hindrance, by far. We have been trying to 
be treated like private land, because we are private land. But 
you guys, for some reason, you don't want to let go.
    And I understand the bureaucracy in Washington, DC, that 
you never want to let go of anything. In fact, I understand 
that you oppose all these new bills that are coming out, 
because you guys want control of it. But you have to admit 
there are problems. There are problems with the permitting. 
There are problems when we have the tremendous amount of 
backlog.
    So what would you suggest we do to try speeding this 
process up? Look, we are right on the verge of being able to be 
completely independent of other countries and keeping our gas 
skyrocketing every time there is a little bit of uprising 
happening over in Iraq or other places. And we have to pay for 
it here in America, when we have it underneath our feet, but 
yet we are trying to develop it and we can't. And we have some 
bills here that would help push that along, and yet you guys 
are opposed to it.
    So, tell me, what are your suggestions? Keep it the way 
that it is?
    Mr. Nedd. Again, Congressman, through the Indian Minerals 
Leasing Act, Congress granted the Secretary certain authority 
when it comes to Indian trust land.
    Mr. Mullin. I asked you a question on what your suggestion 
is. If you oppose these bills, give me a better alternative.
    Mr. Nedd. Again, Congressman, I was attempting to respond 
to you. So through that Indian Minerals Act, the Bureau of Land 
Management, on behalf of the Secretary, works with tribes for 
the permitting of oil and gas. We believe, again, it takes 
about less than 3 months to approve a gathering line. And so we 
are willing to work with that process and continue to see how 
best we can move forward.
    Mr. Mullin. Less than 3 months? There are projects that 
have been on there a lot longer than that we have been asking 
for. I would like to know where you came up with less than 3 
months.
    Once again, I am asking you for suggestions. Give me some 
suggestions. I have quite a few employees that work for me. I 
don't mind them coming to me with their problems, except come 
to me with your problems with suggestions. If the only thing 
you want to do is oppose, you are not helping the situation. 
You are hindering it. You are just sitting in the way of 
progress. And that is what I see your Administration doing 
right now, is sitting in the way of progress.
    We are trying to advance this country. And yet, you guys 
take credit for it every day. And you are not the one doing it, 
it is private sector doing it.
    Thank you, and I will yield back my time.
    Mr. Cramer. The gentleman's time has expired. Thank you, 
Mr. Mullin.
    Just for the good of the order, just to remind people, we 
expect to be voting around 11:20 now, so the House is in recess 
until 11:20.
    At this time, Mr. Lowenthal, you are recognized for 5 
minutes.
    Dr. Lowenthal. Thank you, Mr. Chair. And I am kind of 
confused. I know in the opening statement that the author, the 
sponsor, mentioned that one of the problems with NEPA was that 
there were greater amounts of flaring. I would believe the 
understanding is because of the timing and what takes place 
because of NEPA on Federal lands, than there are on State or 
private lands where NEPA is not required.
    Yet, in testimony and questions that were raised by the 
Ranking Member, Mr. Holt, he identified that in 2013 the 
majority of flaring occurred at wells located on private or 
State lands, 72 percent, and the rate of flaring is no higher 
on Federal public lands than on private State lands.
    I want to ask Ms. Mall. Is there a higher rate of flaring 
on Federal lands? Or are there no real differences? Has NEPA 
been the impediment in this?
    Ms. Mall. I am not aware of any projects to reduce flaring 
that have been delayed by the NEPA process.
    Dr. Lowenthal. OK. I guess Mr. Nedd, is that true also? Has 
NEPA been an impediment? And are there higher rates to, again, 
I think you addressed this a little bit earlier, are there 
higher rates of flaring on Federal lands versus private lands? 
And so, where there is no NEPA requirement, to your knowledge?
    Mr. Nedd. Congressman, I can't say there is a higher rate 
of flaring, especially in the Bakken. I have no knowledge of 
where NEPA has been an impediment that contributed to the 
flaring.
    Dr. Lowenthal. The other question I have, Mr. Nedd, is 
that, are you concerned, is the Department concerned that the 
categorical exclusion in H.R. 4293 would be required to be 
carried out without any consideration of the extraordinary 
circumstances? And what would that mean, if it was done without 
taking into account extraordinary circumstances?
    Mr. Nedd. Again, Congressman, from our interpretation or 
understanding of the bill, that is true with no extraordinary 
circumstances. So, therefore, the BLM would not be able to 
determine the impact of a specific action on the resources.
    Dr. Lowenthal. So, therefore, you would not have an 
assessment by not having, when you are doing the assessment of 
extraordinary circumstances, I know you addressed this also. 
Does that have an impact in terms of the delay, in terms of 
getting permits?
    Mr. Nedd. There is no delay in terms of extraordinary 
circumstances in terms of getting a permit, Congressman.
    Dr. Lowenthal. Thank you, and I yield back.
    Mr. Cramer. Thank you, Mr. Lowenthal. Mrs. Lummis, you are 
now recognized for 5 minutes.
    Mrs. Lummis. I thank the gentleman from North Dakota. My 
first question is for Mr. Soth. I would like to ask about not 
only the environmental benefits of not flaring gas, which 
should be obvious, but what about the economic benefits of 
gathering and piping natural gas instead of flaring it?
    Mr. Soth. Representative, I was able to show a chart that 
demonstrated that in the oil and gas pipelines subsector, the 
industry group of construction, according to the most recent 
data available from the Bureau of Labor Statistics demonstrates 
that we are at an all-time high in the country right now in 
that sort of employment.
    Those are great jobs. Those are jobs that pay, on average, 
for production and non-supervisory workers, over $26 an hour. 
These are private-sector jobs, and that compares to other jobs 
in the private sector of less than $20. So that is a 
substantial differential. Those are great jobs. We are at an 
all-time high in the USA right now, and there is substantial 
investment expected.
    It should be self-evident that having limited 
infrastructure and capacity to move natural gas away from 
extraction sites to processing facilities is a necessary 
component to reduce flaring. Those gathering lines and the 
construction thereof will create jobs for operating engineers 
and other pipeline craft workers, and we are anxious to make 
sure that Congress is updating and modernizing the structure 
about this regulatory framework in a whole number of arenas, 
especially around this concern with NEPA, to ensure that we 
realize that energy future that all of us have identified in 
natural gas for this country.
    Mrs. Lummis. I am sorry I missed that chart, but I will 
grab it from an exhibit from the Chairman.
    You reference the existing pipeline permitting system on 
Federal lands. Could the pipeline infrastructure grow fast 
enough to catch up with the boom in oil production, if the 
process were more streamlined, which, as I understand it, is 
what the gentleman from North Dakota is attempting to 
accomplish with his bill?
    Mr. Soth. Well, we really believe that a comprehensive 
review is necessary right now. What we have seen in natural gas 
has been unprecedented. There are a whole range of things that 
need to be done.
    We have been supportive, for example, of H.R. 1900 that has 
been in the Energy and Commerce Committee's jurisdiction around 
FERC regulatory authority, as well. There are really a whole 
host of things that need to be done, particularly around 
pipeline regulatory framework, to ensure that we have the 
energy future that we want in this country, and to ensure that 
we have the kind of investment and job growth that will enable 
all of us to have a cleaner and better economy and environment.
    Mrs. Lummis. Quick question, Mr. Nedd, for you. Is the BLM 
doing anything to speed up the approval of infrastructure 
necessary to reduce flaring? Certainly the BLM understands and 
appreciates the desire of taking an economically beneficial 
product from being vented or flared into the air, thereby 
exacerbating air quality problems, and getting it into a 
pipeline where it can provide economic and heating benefits 
around the country.
    Mr. Nedd. Congresswoman, certainly the BLM has taken a 
number of steps. For instance, in the Bakken area, they are a 
part of the Federal family that works with partners to see how 
to streamline the process.
    The BLM continues to maintain, as part of the APD process, 
operators can, in fact, include information for a gas line 
gathering, that it would be allowed to be analyzed at that time 
and approved. So we believe there are some vehicles that 
already exist within our authority that can help to expedite 
this. And in the Bakken, again, I said because of the newly 
formed play or the infrastructure not fully developed, 
operators are making certain decisions.
    Mrs. Lummis. Well, let me shift then to Wyoming instead of 
the Bakken. In the Pinedale Anticline, in the Jonah Field and 
the Jonah expansion, which are Federal lands, we have seen the 
talent, the people, the jobs, migrate up to the Bakken because 
permitting is going at a more expedited manner, and there seems 
to have been a slow-down of permitting, especially air quality-
related permitting, that is slowing down the ability of us to 
produce oil and gas on Federal land in Wyoming. And, of course, 
Wyoming being half Federal lands, we are at the mercy of the 
Federal Government to extract oil and gas from Federal lands.
    North Dakota largely is not Federal lands, it is mostly 
private lands. And so, they are in a position to be more 
expeditious about protecting air quality because of their 
dealing with private lands and not the BLM.
    I just find it rather frustrating that, as the focus of 
this Administration seems to be on air quality, and now they 
are shifting over to water, trying to usurp a lot of State 
water rights, and under new Federal regulations, just the way 
they did under air quality regulations, that the result is to 
release more hydrocarbons into the air when it could be 
gathered and put to beneficial use. And so I just simply 
express that as a frustration.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cramer. Thank you, Mrs. Lummis. Since we do have some 
time, and there are so few of us, I am going to have another 
round of questioning. It may not be long, but I do want to 
pursue a couple of things since we have you all, and we have 
the time. So I will recognize myself again for 5 minutes.
    And I want to help clarify, because Mr. Lowenthal asked a 
good question, and there is a distinction I think that we 
should clarify since we have the opportunity. Mr. Holt placed 
into the record this Clean Air Task Force report that was 
developed in the Bakken by I think the North Dakota Industrial 
Commissioner as part of the North Dakota Industrial 
Commission's efforts. And I also will be placing into the 
record later, without objection, the North Dakota Industrial 
Commissioner's Flaring Task Force report done by the North 
Dakota Petroleum Council, which has similar information.
    And here is, I think, why there is some conflict. The 
report that Mr. Holt placed into the record states that on 
private and State land in North Dakota, this says specifically, 
flaring is 29 percent. On other Federal land it is 27 percent. 
But specifically on the Fort Berthold Indian Reservation 
flaring is 46 percent. And it is this relationship, as I 
started to talk about earlier, with the BIA, the tribes, the 
BLM. Let's face it, when you take the Federal bureaucracy and 
throw it into another Federal bureaucracy like the BIA, it 
seems it is hard to deny that it wouldn't be more cumbersome 
than on private land or perhaps even other Federal land.
    So that is the distinction. It is the distinction between 
the Fort Berthold Indian Reservation, which, in North Dakota, 
by the way, is the heart of the Bakken. A fourth to a third of 
the Bakken is the Fort Berthold Indian Reservation. So this 
distinction is really rather massive.
    And I don't want to speak for anyone else, but I sat in a 
meeting with Chairman Tex Hall, the Chairman of the three 
affiliated tribes, and EPA administrator Gina McCarthy, where 
the Chairman was rather pointed about this reality, that the 
process for permitting anything, not just the drilling, but the 
infrastructure, is so onerous that there are at least, as he 
said, 10 permits required to do things on Indian lands that 
aren't on other lands.
    And that brings me to, I think, Mr. Nedd, I want to pursue 
this a little bit more with you, because in your testimony you 
actually mentioned a provision that gives the Administration 
some concern regarding legal responsibility for consultation, 
stewardship, and oversight service for production on tribal 
lands.
    So, this provision that you are referring to says that the 
provisions in this bill, that the bill, my bill, shall be 
applied if and only if the Indian tribe with jurisdiction over 
the Indian land submits to the Secretary of the Interior a 
written request that it apply. Can you tell me why the 
Administration is concerned about giving the tribe a choice of 
whether or not it wants a Federal agency to manage its land?
    I mean I was just with the President of the United States 
on a North Dakota Reservation a week ago, where he talked about 
honoring sovereignty. And here, the Administration seems to be 
going against that very concept of sovereignty for the tribe.
    Mr. Nedd. Congressman, what I can say, again, is the 
authority under the Indian Minerals Leasing Act certainly 
allows the BLM to work with the tribes in managing those trust 
lands, that 56 million acres. And in working with the tribes 
through consultation, the BLM certainly incorporates their 
input into that.
    And so, the Administration feels, again, they have enough 
authority to proceed to conduct the work under the authority 
Congress has given them, and this bill would just interdict 
confusion. And the Administration position is that we believe 
they have enough authority already to do that.
    Mr. Cramer. With all due respect, I think this bill 
clarifies, it doesn't further confuse. It simply states that it 
is up to the tribe and its administration, in its sovereignty, 
to determine whether the Secretary of the Interior has anything 
to say about it or not. So, I don't find that confusing.
    It may be in conflict with the Administration's position, 
but the Administration's own position as stated in the last 
week seems to be in conflict. On the one hand they support 
sovereignty; on the other hand, they want to continue to have 
this authority, which is adding burden and making job creation 
on the Indian reservation that much more difficult. So, with 
all due respect, I don't find that answer to be consistent with 
what I heard from the President a week ago. That concludes my 
questioning.
    Mr. Lowenthal, anything--I thought you might. So, Mr. 
Lowenthal, you are recognized for 5 minutes. Thank you.
    Dr. Lowenthal. Thank you, Mr. Chair. And I think this is a 
fascinating discussion.
    Mr. Cramer. I am sure you do.
    Dr. Lowenthal. Again, and I just want to be clear, in the 
Clean Air Task Force it talks about in 2013 the total amount of 
gas produced in the entire State of North Dakota, which was 
approximately, I am not sure what the unit was, but it was 
335,665.
    Private or State lands was 262,100, which was 
approximately, the largest percentage of the total amount of 
gas produced in North Dakota came from private or State lands, 
46,000, approximately, from the Indian reservation, and other 
Federal lands about 26,000. On private or State lands, of the 
amount that was flared, 74 percent--or 74,000, or 29 percent, 
was on private or State lands. Other Federal lands was the 27 
percent. And so, when you just compare, even though the largest 
amount was on private or State, that is, the largest amount of 
total gas produced in North Dakota was on private or State 
lands, there really isn't any significant difference between 
that and the other Federal lands.
    You are right that something is going on on the Indian 
reservation, that is true. And we should understand that. And I 
think what you pointed out is possibly it is the interaction of 
Federal agencies. But that really is not NEPA.
    That is another problem that we should address, why it 
becomes so difficult. Because if we just look at the State and 
private versus Federal, it is not NEPA that is doing it in 
North Dakota, in terms of producing the difficulties or that we 
are seeing that we need a solution to this problem. The 
solution looks at that interaction and the inability to 
coordinate Federal agencies, and to do that in a more succinct 
way. And I think that is something that we potentially might 
want to look at and work on.
    But I think that, as Mr. Holt, our Ranking Member, has 
said, if we go down this road, we may be solving a problem that 
doesn't exist. And it may have some help, but it really might 
be solving the wrong problem. Not that there is not a problem, 
and especially on tribal lands. There is, something is going 
on, and that you have identified, and that is really true.
    My other question I would like to ask to Mr. Frost is, what 
makes oil and gas pipelines different than the other kinds of 
infrastructure that the National Park Service has now the 
authority to permit on park lands? Why is it different?
    Dr. Frost. Oil and gas has a lot of infrastructure 
associated with it. They have pump houses, there is a lot of 
maintenance, there are roads. And so, just the footprint of the 
oil and gas pipeline necessary to move the material has a huge 
footprint that could impact park resources.
    The other thing is, in the case of an oil spill, the 
potential to damage resources, both short-term and long-term, 
are inherently much larger than a transmission line. You know, 
if a transmission line tips over, it is going to maybe knock 
some trees down or something.
    But let's look at an example. Back in 1996, at Chattanooga 
and Chickamauga National Battlefield, there was a 100,000-
gallon oil spill that went into the park. Only 2,000 gallons 
were recovered. So that means 98,000 gallons of oil is still in 
the park somewhere. So there is a huge difference in terms of 
the potential impact and then the infrastructure impact needed 
to sort of support the facilities.
    Dr. Lowenthal. Thank you. Ms. Mall, I have a question. Your 
organization pays a lot of attention to NEPA reviews, I would 
assume. Are you aware of any environmental impact statements on 
gas gathering pipelines that have been particularly contentious 
or challenged by environmental groups?
    Ms. Mall. I am not, no.
    Dr. Lowenthal. Thank you. I wonder if Mr. Lund, if you are 
aware of any environmental impact statements on gas gathering 
pipelines that have been particularly contentious or challenged 
by environmental groups.
    Mr. Lund. I am not aware of any, either.
    Dr. Lowenthal. Thank you. I yield back.
    Mr. Cramer. Thank you. And I would now recognize Mrs. 
Lummis for 5 minutes for a second round of questioning.
    Mrs. Lummis. I thank the Chairman. And I am delighted to 
hear Mr. Lowenthal say that we have problems on Indian lands 
with regard to multiple layers of bureaucracy. And it does 
transcend just oil and gas production. It goes to grazing and a 
whole variety of things. And it is recognized as a bipartisan 
issue. In other words, during Republican presidencies, heads of 
the BIA were extremely frustrated. During Democrat 
administrations the heads of the BIA were tremendously 
frustrated.
    I know when Larry Echo Hawk was the BIA Director under the 
Obama administration and came to Interior and Environment 
Appropriations Subcommittee, which I served on, he expressed a 
lot of frustration about the bureaucratic web that seems almost 
impossible to fix. And one would think a man of his stature and 
knowledge and legal skills and background and capabilities 
might have been able to cut through some of that. And even he, 
I believe, left frustrated. So, you think of the frustration at 
the top, think of the frustration of the people who are living 
under this web and layers of bureaucracy.
    I know that on the Wind River Reservation in Wyoming, in 
Indian County elsewhere in the country as well, you have to get 
permission from the Federal Government to turn your cattle into 
a specific pasture, and it can be delayed for weeks, if not 
months, after which the issue is moot. I mean you have to make 
hay while the sun shines, as they say.
    And so, we have a genuine, serious problem with multiple 
layers of bureaucracy with regard to the Bureau of Indian 
Affairs. And it is just paralyzing progress in Indian country. 
And I appreciate that it is acknowledged as a issue by both 
parties that needs to be addressed. And you know, God help us 
do that at some point.
    Question now. I am pivoting to Mr. Marino's bill. And, Mr. 
Santa, can you tell me if Mr. Marino's bill will modify the 
amount of environmental analysis that the Park Service has to 
conduct for a pipeline project?
    Mr. Santa. Mrs. Lummis, I do not believe that it will, 
because, under the current law, even though separate statutory 
authorization is required to authorize the Park Service to 
grant the right-of-way, the Park Service still needs to conduct 
that review. So the current law is duplicative, and I think in 
no way would add to the work that the Park Service would have 
to perform.
    Mrs. Lummis. Following up, then, does it remove the ability 
of the Park Service to say no to a project?
    Mr. Santa. As with other forms of infrastructure, where it 
has the authority to grant rights-of-way, the Park Service 
would have the authority to deny or condition the grant of a 
right-of-way.
    Mrs. Lummis. What other safeguards are already built into 
the permitting process to make sure infrastructure like 
pipelines have only negligible impacts on a park?
    Mr. Santa. Well, interstate pipelines have to be authorized 
by the Federal Energy Regulatory Commission. That involves NEPA 
review. In addition to that, there are a host of other Federal 
environmental laws with which pipelines need to comply, and 
with which pipelines need to obtain permits from Federal 
agencies or, in many cases, State agencies acting pursuant to 
delegated authority.
    Mrs. Lummis. Do you have an opinion about whether the Park 
Service has a good track record in managing infrastructure 
projects to protect the parks?
    Mr. Santa. I have no reason to believe that they do not 
have a good record in doing so.
    Mrs. Lummis. Do you expect anything less when it comes to 
gas pipelines?
    Mr. Santa. No, I do not. I think they will fulfill their 
responsibilities.
    Mrs. Lummis. You know, we have created a lot of new 
monuments and Federal designations while I have been here in 
Congress, and that means more and more lands are being subject 
to these extra layers of scrutiny. And so I think that, because 
of that, and because some of these areas are absolutely 
geographically massive, that we do have to come to terms with 
this issue.
    So, with that, Mr. Chairman, I yield back with appreciation 
for your fine work as a former regulator and a knowledgeable 
member of your State's----
    Mr. Cramer. Thank you.
    Mrs. Lummis [continuing]. Massive house delegation.
    Mr. Cramer. Thank you very much. And thank all of you. This 
will end our questioning at this time.
    I might just mention that this committee and this House 
did, in fact, pass the Native American Energy Act some time 
ago, Mr. Young's bill, you may recall, that did similar things, 
perhaps even on a grander scale, codifying without any doubt 
the tribe's jurisdiction over its own land. That is yet to be 
taken up in the Senate.
    So, again, Members may have additional questions for the 
record, and I would encourage all of you to answer those if 
they provide them in writing.
    And then one final order of business. I ask unanimous 
consent to enter into the record a letter from the Southern Ute 
Indian Tribe in support of H.R. 4293; also some written 
testimony provided by Continental Resources; and also this 
report, the NDPC Flaring Task Force, North Dakota Industrial 
Commission, which has, I think, some of the same information 
that Ranking Member Holt offered up earlier.
    [No response.]
    Mr. Cramer. Without objection, so ordered.
    [The information submitted by Mr. Cramer for the record 
follows:]
  Prepared Statement of Blu Hulsey, Vice President of Government and 
      Regulatory Affairs, Continental Resources, Inc. on H.R. 4293
    Good morning Chairman Lamborn, Ranking Member Holt and members of 
the subcommittee. My name is Blu Hulsey and I am Vice President of 
Government and Regulatory Affairs for Continental Resources, Inc. 
Continental is an oil and gas company that explores and produces 
primarily in the Bakken play in North Dakota and Montana and the SCOOP 
play in Oklahoma. Continental is a top 10 independent oil and gas 
producer in America and currently produces approximately 155,000 
barrels of oil per day. I appreciate the opportunity to testify in 
front of this committee today and specifically to comment on H.R. 4293, 
``The Natural Gas Gathering Enhancement Act'' authored by Congressman 
Cramer.
    Continental Resources is currently the largest acreage holder in 
the Bakken formation with more than 1.2 million acres under lease. As a 
State relatively new to oil and gas production, North Dakota is rapidly 
expanding infrastructure and has recently adopted a program requiring 
that operators develop and adopt Gas Capture Plans (GCPs) to encourage 
the planning of gas gathering infrastructure and to encourage the use 
of current technology to capture produced gas, thereby curtailing 
flaring. The North Dakota Industrial Commission (NDIC), in cooperation 
with the North Dakota Petroleum Council (NDPC), has explored many 
technologies and actions that could be included in these GCPs to 
facilitate the capture and usage of natural gas thereby setting a 
process to curtail flaring in North Dakota. While Continental continues 
to search for additional methods to effectively capture gas and thereby 
reduce flaring, we still face some challenges and one of those major 
challenges is securing right-of-ways for connection activities. 
Challenges with infrastructure development also include delays in 
zoning by counties and townships for midstream facilities, a short 
construction season due to weather, and a limited number of available 
construction crews in the State. All of these issues make timing 
reliability of right-of-way permits that much more critical.
    Continental understands and is committed to reducing flared natural 
gas volumes and has been successful in reducing the percentage of gas 
flared from Continental operated wells in the North Dakota Bakken to 
less than 11 percent of the total volume of gas produced from those 
wells. One of the impediments to capturing this gas and reducing 
flaring is the development of infrastructure in the form of natural gas 
gathering lines and pipelines required to deliver this gas to market. 
The ability to secure right-of-way for these gathering systems is at 
the root of this infrastructure issue. On private lands, in most cases, 
this right-of-way can be obtained through negotiation with the property 
owner. The process for obtaining access across Federal lands can take 
much longer and for National Park Service (NPS) lands, it requires an 
act of Congress.
    The current process of obtaining right-of-way through National 
Parks for gas gathering lines requires the National Parks Service to 
obtain approval from Congress, making this much more complicated than 
any other Federal right-of-way process. This antiquated approval system 
dates back to 1901 and should be brought up to modern standards. This 
bill would allow the Secretary of the Interior to grant that authority 
for natural gas pipelines provided the action is consistent with the 
primary purposes of the proposed area and the applicant fulfills all 
other legal requirements of the Department. For example all NEPA 
requirements would still have to be fulfilled. We support this effort 
to streamline the decisionmaking process and feel this is a common 
sense approach to what should be a simple process.
    H.R. 4293 also partially consolidates the National Environmental 
Policy Act (NEPA) process by categorically excluding the issuance of 
right-of-way for natural gas gathering lines and compressor stations 
from NEPA in a field or unit where an environmental document has 
already been prepared under NEPA or which are adjacent to an existing 
disturbed area for the construction of a road or well pad. This change 
in statute will remove yet another impediment to the overall permitting 
process by consolidating regulatory requirements. The benefits of 
applying an existing NEPA review to a project in an area already 
subject to a NEPA document simply makes sense and eliminates costly 
duplicative studies on the same piece of land. By consolidating these 
regulatory steps, the NEPA requirement is maintained but the process is 
much less onerous on the developers of the infrastructure.
    The issuance of Federal permits may be held up for many different 
reasons. The proposed legislation establishes enforceable deadlines for 
the issuance of permits for natural gas gathering lines. Continental 
would even suggest this portion of the act be modified to establish a 
``date certain'' after which a decision of some sort would be granted 
by default. It has been our experience that delays tend to be the rule 
rather than the exception and a ``date certain'' would allow for 
improved planning to occur and a decision would be certain on the 
established deadline, 30 or 60 days from the date of receipt of a 
completed application.
    Finally, H.R. 4293 provides an assessment whereby this enhanced 
permitting process can be monitored for effectiveness and whereby mid-
course corrections can be made. It is our feeling that any positive 
movement toward streamlining the permit to drill or right-of-way 
approval process is a move in the right direction. The Federal 
Government should always be reviewing its regulatory and permitting 
processes in such a way that it is constantly moving toward a more 
effective and efficient permitting process.
    Mr. Chairman, I appreciate the opportunity to comment on this very 
important legislation. Continental understands the need to conserve our 
valuable natural resources and is making every effort to deliver every 
molecule of the fossil fuels its wells produce to the markets where 
they needed most. We therefore support any action on behalf of this 
body and Congressman Cramer to streamline regulatory processes to 
assist our industry in more effectively building the infrastructure 
that delivers these valuable assets to market.

                                 ______
                                 

        Letter Submitted for the Record in Support of H.R. 4293
                         Southern Ute Indian Tribe,
                                               Ignacio, CO,
                                                     June 17, 2014.
Hon. Doug Lamborn, Chairman,
Hon. Rush Holt, Ranking Member,
House Subcommittee on Energy & Minerals,
Washington, DC 20515.

Re: Tribe 's Support for the Natural Gas Gathering Enhancement Act 
        (H.R. 4293)

    Dear Chairman Lamborn and Ranking Member Holt:

    I am writing in support of H.R. 4293, the ``Natural Gas Gathering 
Enhancement Act,'' introduced by Rep. Cramer in March 2014, and 
referred to this subcommittee thereafter.
    On behalf of the Southern Ute Indian Tribal Council (the Tribe), I 
appreciate the opportunity to express the Tribe's support for this 
important natural gas-related legislation. Before commenting on the 
bill, some background is in order.
    For more than a decade, the Tribe has worked with its congressional 
delegation and the committees of jurisdiction to achieve positive 
changes to statutes, regulations and policies so that it can develop 
its energy resources in an effective way for the benefit of the Tribe's 
members. In so doing, the Tribe has become a major producer of natural 
gas and the economic engine of southwest Colorado.
Profile of the Southern Ute Indian Tribe
    Despite the challenging land ownership pattern on the Reservation, 
the Tribe has worked hard to establish solid working relationships with 
the State of Colorado and local governmental entities, which have 
minimized conflict and emphasized cooperation.
    Our Reservation is a part of the San Juan Basin, which has been a 
prolific source of oil and natural gas production since the 1940s. 
Commencing in 1949, the Tribe began issuing leases under the 
supervision of the Secretary of the Interior. For several decades, we 
remained the recipients of modest royalty revenue, but were not engaged 
in any active, comprehensive resource management planning. That changed 
in the 1970s as we and other energy resource tribes in the West 
recognized the potential importance of monitoring oil and gas companies 
for lease compliance and maintaining a watchful eye on the Federal 
agencies charged with managing our resources.
    A series of events in the 1980s laid the groundwork for our 
subsequent success in energy development. In 1980, the Tribal Council 
established an in-house Energy Department, which spent several years 
gathering historical information about our energy resources and lease 
records. In 1982, following a key U.S. Supreme Court decision, the 
Tribe enacted a severance tax, which has produced more than $500 
million in revenue over the last three decades. After Congress passed 
the Indian Mineral Development Act of 1982, we carefully negotiated 
mineral development agreements with oil and gas companies involving 
unleased lands and insisted upon flexible provisions that vested our 
tribe with business options and greater involvement in resource 
development.
    In 1992, the Tribe launched its own gas operating company, Red 
Willow Production Company, which was initially capitalized through a 
secretarially-approved plan for use of $8 million of tribal trust funds 
received by our tribe in settlement of reserved water right claims. 
Through conservative acquisition of on-Reservation leasehold interests, 
we began operating our own wells and received working interest income 
as well as royalty and severance tax revenue. In 1994, we participated 
with a partner to purchase one of the main pipeline gathering companies 
on the Reservation.
Energy Development and Development of the Tribe's Economy
    Today, the Tribe is the majority owner of Red Cedar Gathering 
Company, which provides gathering and treating services throughout the 
Reservation. Ownership of Red Cedar Gathering Company allowed us to put 
the infrastructure in place to develop and market coal bed methane gas 
from Reservation lands and gave us an additional source of revenue. Our 
Tribe's leaders recognized that the peak level of on-Reservation gas 
development would be reached in approximately 2005, and, in order to 
continue our economic growth, we expanded operations off the 
Reservation.
    As a result of these decisions and developments, today, the Tribe, 
through its subsidiary energy companies, conducts sizable oil and gas 
activities in approximately 10 States and in the Gulf of Mexico. We are 
the largest employer in the Four Corners Region, and there is no 
question that energy resource development has put the Tribe, our 
members, and the surrounding community on stable economic footing.
    The Southern Ute Indian Reservation consists of approximately 
700,000 acres of land located in southwestern Colorado in the Four 
Corners Region of the United States. The land ownership pattern within 
our Reservation is complex and includes tribal trust lands, allotted 
lands, non-Indian patented lands, Federal lands, and State lands. Based 
in part upon the timing of issuance of homestead patents, sizable 
portions of the Reservation lands involve split estates in which non-
Indians own the surface but the tribe is beneficial owner of oil and 
gas or coal estates. Despite the challenging land ownership pattern on 
the Reservation, the Tribe has worked hard to establish solid working 
relationships with the State of Colorado and local governmental 
entities, which have minimized conflict and emphasized cooperation.
    These energy-related economic successes have resulted in a higher 
standard of living for our tribal members. Our members have jobs and 
health care, and our educational programs provide meaningful 
opportunities at all levels. Our elders have stable retirement 
benefits.
    We have exceeded many of our financial goals, and we are well on 
the way to providing our children and their children the potential to 
maintain our tribe and its lands in perpetuity.
    The road to energy-related prosperity has not been easy and along 
the way, the Tribe has encountered and overcome numerous obstacles, 
many of which are institutional in nature. Nonetheless, our close 
collaboration with Congress over the decades has provided relief on a 
number of fronts to make easier our development goals, and those of 
other tribes as well.
The Natural Gas Gathering Enhancement Act of 2014
    The legislation before this subcommittee recognizes the natural gas 
boom and the enormous economic benefits that boom is bringing to 
communities across the country. It also recognizes that the physical 
infrastructure necessary to fully take advantage of the natural gas 
bounty is not being developed quickly enough, often resulting in 
venting and flaring. Last, the bill acknowledges that the Federal 
permitting process can--and often does--hinder natural gas 
infrastructure development such as pipelines and gathering lines on 
Federal and Indian land.
    The centerpiece of H.R. 4293 is section 4(b), which provides that 
sundry notices or rights-of-way for gas gathering lines and related 
field compression units located on Federal or Indian land shall be 
considered an action that is categorically excluded under the National 
Environmental Policy Act (NEPA), if the lines or units are:

  (a)  within a field or unit for which an approved land use plan or an 
            environmental document prepared pursuant to NEPA analyzed 
            transportation of gas produced from one or more oil wells 
            in that field or unit as a reasonably foreseeable activity; 
            or

  (b)  located adjacent to an existing disturbed area for the 
            construction of a road or pad.

    Importantly, section 4 also includes a provision which provides 
that any Indian tribe interested in having the above provision apply to 
its lands must submit a written request that it so apply. The Tribe 
very much welcomes this demonstration of respect for tribal 
decisionmaking and tribal sovereignty over its own lands and resources.
    Sections 5 (``Deadlines for Permitting Natural Gas Gathering Lines 
Under the Mineral Leasing Act'') and 6 (``Deadlines for Permitting 
Natural Gas Gathering Lines under the Federal Land Policy and 
Management Act of 1976'') provide discrete deadlines for the Department 
of the Interior to issue sundry notices or rights-of-way for gas 
gathering lines and related field compression units.
    Indian tribes are thoroughly familiar with lengthy and costly 
delays involved with the Federal approval and permitting process and, 
accordingly, suggest this legislation be amended to bring real 
discipline to the issuance of such notices and rights-of-way when it 
comes to natural gas infrastructure located on or near Indian lands.
    The Tribe is also very supportive of the study and report mandated 
by section 4(c) that would be carried out in consultation with Federal 
agencies, States and Indian tribes to both:

  (a)  identify actions that can be taken immediately under current law 
            to expedite permitting for gas gathering lines and related 
            field compression units located on Federal and Indian land 
            for purposes of transporting to a processing plant or a 
            common carrier for distribution to the markets; and

  (b)  identify changes to Federal law to expedite permitting for gas 
            gathering lines and related field compression units located 
            on Federal and Indian land for purposes of transporting to 
            a processing plant or a common carrier for distribution to 
            the markets.

    I appreciate the opportunity to provide the Tribe's views on H.R. 
4293 and respectfully urge the subcommittee and full committee to 
expedite consideration of the bill with an eye toward having it enacted 
in this calendar year.

            Sincerely,

                                Clement J. Frost, Chairman,
                                Southern Ute Indian Tribal Council.

                                 ______
                                 

    Mr. Cramer. If there is no further business, without 
objection, the committee is adjourned.
    [Whereupon, at 10:56 p.m., the subcommittee was adjourned.]


[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

-- North Dakota Petroleum Council, North Dakota Industrial 
Commission: NPDC Flaring Task Force

                                 [all]
</pre></body></html>
